<html>
<title> - A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 3 OF 4)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-78]
 
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 3 OF 4)

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 25, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  
                     U.S. GOVERNMENT PRINTING OFFICE
38-758 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Greg Marchand, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 25, 2007, A Third Way: Alternatives for Iraq's 
  Future (Part 3 of 4)...........................................     1

Appendix:

Wednesday, July 25, 2007.........................................    47
                              ----------                              

                        WEDNESDAY, JULY 25, 2007
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 3 OF 4)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Biddle, Dr. Stephen, Senior Fellow for Defense Policy, Council on 
  Foreign Relations..............................................     4
Eaton, Maj. Gen. Paul D., (Ret.), Former Commander, Coalition 
  Military Assistance Training Team, Iraq, U.S. Army.............     8
Hughes, Col. Paul, (Ret.), Senior Program Officer, Center for 
  Post-Conflict Peace and Stability Operations, United States 
  Institute of Peace, U.S. Army..................................     6
West, Hon. Francis J. ``Bing'', former Assistant Secretary of 
  Defense for International Security Affairs.....................    10

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    53
    Biddle, Dr. Stephen..........................................    71
    Eaton, Maj. Gen. Paul D., (Ret.).............................    59
    Hughes, Col. Paul (Ret.).....................................    64
    Snyder, Hon. Vic.............................................    51
    West, Hon. Francis J.........................................    56

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 3 OF 4)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                          Washington, DC, Wednesday, July 25, 2007.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good morning, and welcome to the third in a series of four 
hearings we are holding during the month of July, that the 
Subcommittee on Oversight Investigations is holding, on 
alternative strategies for Iraq.
    We are holding these hearings because Mr. Akin and I and 
others have been frustrated by the tone of the debate and 
discussions about Iraq we have heard for the rest of the past 
few months of this year and the polarization that has occurred 
in this Congress and in this country.
    We wanted to have a series of hearings in which we invited 
smart, experienced people--granted, with different 
backgrounds--to help us identify and develop what should be the 
appropriate approaches for Iraq, looking toward: Are there 
approaches other than the ones that we have been hearing in the 
debate on the House and Senate floor?
    Our intent is less to critique current or past policies, 
but more to focus on the future. And we hope through these 
hearings to enhance the public debate and inform the full 
committee deliberations.
    I think we are off to an excellent start. I think the other 
committee members do, too.
    Over the past two weeks, we have heard from retired senior 
military officers, defense policy experts, and academics who 
specialize on the Middle East, including General Wesley Clark, 
Max Boot of the Council on Foreign Relations, Dr. Muqtedar Khan 
of the University of Delaware and Brookings, and Dr. Daniel 
Byman of Georgetown University's School of Foreign Service.
    At the same time, the full committee has held hearings on 
trends and recent security developments in Iraq, and this 
afternoon, will hold a joint session with the Permanent Select 
Committee on Intelligence to receive testimony regarding 
implications of the recent NIE with respect to al Qaeda.
    We have asked our witnesses to look forward rather than 
backward. We are not intent on a rehashing how we got to where 
we are. They have been asked to address alternative strategies, 
and have been given guidance that should allow the subcommittee 
and the public to draw comparisons in key areas.
    Each witness today has provided us with a written 
statement, and I think it is clear from these statements that 
we have a variety of backgrounds, perspectives and ideas. And I 
hope that today will bring a vigorous discussion not only 
between the subcommittee members and the witnesses, but between 
the witnesses themselves. Anyone who was here two weeks ago for 
our first hearing will tell you that is the kind of productive 
exchange that we had and are looking for.
    Today's hearing will begin with a statement from the 
Honorable Bing West, an award-winning author, correspondent for 
the Atlantic Monthly, former Marine Combat Commander, and 
Assistant Secretary of Defense for International Security 
Affairs during the Reagan Administration.
    Mr. West will be followed by Major General Paul Eaton, who 
retired from the Army in 2006 after 33 years of military 
service, including command of the initial effort to develop a 
new Iraqi army in 2003 and 2004.
    Our third witness is Colonel Paul Hughes, whose resume 
includes a distinguished military career and also, since 
retiring from the Army, work on the Iraq Study Group's military 
and security expert working group.
    Finally, we have with us Dr. Stephen Biddle, a senior 
fellow for defense policy and the top analyst on Iraq at the 
Council on Foreign Relations.
    We welcome you all.
    And Mr. Akin is recognized for any opening comments he 
would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 51.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    Good morning to the witnesses, and thank you for joining us 
here today.
    The hearing is the third in the series aimed at breaking 
out of the false construct about Iraq, and that is to look at 
it either while we have a choice of a precipitous withdrawal or 
stay the course. We think there are going to be some better 
alternatives.
    While these hearings have been constructive, I would like 
to emphasize and reiterate the purpose of the exercise: that we 
are here to discuss alternatives that truly offer a different 
plan to the current strategy. Just critiquing the current 
approach is not the point of this hearing, and it is helpful 
only as it suggests other possibilities.
    So I look forward to hearing the witnesses discuss and 
define alternatives plans, if you think that one is 
appropriate.
    After reviewing our witnesses' testimonials, it is clear 
that some advocate departing from the current strategy. General 
Eaton, Colonel Hughes do not endorse pursuing a plan that 
emphasizes U.S. combat forces going door-to-door, performing a 
counter-insurgency mission aimed at securing and holding Iraqi 
neighborhoods. Dr. Biddle's testimony acknowledges that the 
current plan has a chance of success but believes the likeliest 
outcome of the surge is eventual failure. Only Mr. West would 
seem to argue in favor of the current strategy.
    I have a couple of questions I would like our witnesses to 
address over the course of the hearing.
    Those who advocate departing from the current strategy 
emphasize the need for improving the readiness of the Army and 
Marine Corps. While I think all members agree that this is an 
important issue and a vital priority, I am curious how your 
alternative will allow U.S. troops to carry out the following 
military roles and missions: one, training Iraqi security 
forces; two, deterring conventional militants from intervening 
in Iraq; three, supporting al Qaeda's enemies; and four, 
conducting direct strike missions.
    Almost all of the experts who have testified before this 
subcommittee on this subject agree that continuing these roles 
and missions in Iraq is important.
    Finally, according to previous witnesses, increased 
violence, humanitarian tragedy, a failed state, emboldened 
terrorists and regional actors will all result in the wake of 
the withdrawal or significant drawdown of American forces. I 
would like to know how our witnesses will ensure that their 
plan will not make the situation worse.
    For those concerned about readiness, how will we ensure 
that, subsequent to withdrawal, the U.S. will not find itself 
in a situation where U.S. forces will have to return to Iraq in 
five or ten years?
    I would also appreciate it if you would take some time this 
morning to discuss how the U.S. should manage the consequences 
of withdrawal.
    Thank you again for being here.
    Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 53.]
    Dr. Snyder. Thank you, Mr. Akin.
    All four of you have submitted written statements, and, 
without objection, they will be made a part of the record of 
the subcommittee hearing.
    We will use the light system. You will see a green light go 
on, and at some point, you will see a little flashing yellow 
and then the red light. That is the five-minute notice. If you 
need more time, then take it, but it is just to give you an 
idea of where you are at. And hopefully, we will be fairly 
close to that so we can get into our questions.
    I also want to give you fair notice of what my first 
question will be, which is--Mr. Akin and I put ourselves on the 
five-minute clock, which we try to follow pretty strictly, but 
I will ask each of you to critique anything you hear from other 
members or their written statements in the spirit of a full and 
spirited discussion. So you may want to pay attention both to 
what you hear and what you say, because you may be critiqued 
for it by your colleagues.
    So, Dr. Biddle, let us start with you, and I think we will 
just go down the line.
    We appreciate you all very much for you being here and 
appreciate you all having your written statements in in a 
timely fashion.
    Dr. Biddle.

  STATEMENT OF DR. STEPHEN BIDDLE, SENIOR FELLOW FOR DEFENSE 
              POLICY, COUNCIL ON FOREIGN RELATIONS

    Dr. Biddle. Let me thank the committee for this opportunity 
to talk with you about this rather important set of issues.
    I think the first observation I would make is that there 
aren't any good options for Iraq, either at the extremes or the 
middle. There is nothing that looks like an opportunity at this 
point with high probability to secure all U.S. interests in the 
region.
    Four years of mistakes eventually can leave you in a 
position where you don't have good alternatives, and I think 
that is where we find ourselves now.
    Unfortunately, that is true for the extremes of surge and 
withdrawal. I think it is also true for most of the in-between 
options that people have talked about as alternatives to those 
extremes.
    I think when you look across the set of possibilities that 
have been raised in the public debate to date, I think one can 
characterize them as a group as tending, by and large, to 
reduce our ability to control the environment militarily in 
Iraq but still leaving, more or less by definition, tens of 
thousands of Americans in the country to act as targets.
    What that creates, I think, is a danger that, over several 
years after initiating such a posture, what we are likely to 
see is continued U.S. casualties, again, in an environment we 
have difficulty controlling militarily and less ability than we 
have now to stabilize the country or improve conditions around 
the U.S. deployment. And I think what that is likely to do is 
create very powerful pressures a couple of years down the road 
to go all the way to zero.
    And I think if we are going to go all the way to zero 
within a couple of years anyway, the case to be made for saving 
the lives in between that would be lost and beginning resetting 
of the American military a couple of years sooner than we would 
otherwise be able to do, to deal with some of the other 
challenges and contingencies that are going to face us in the 
world with or without success or failure in Iraq.
    Now, the formal statement that I provided looks in some 
detail at four particular in-between options: a partial 
withdrawal of U.S. troops and a reorientation of those that 
remain to training and supporting the ISF; a partial withdrawal 
of U.S. troops and reorientations of those that remain to 
hunting al Qaeda; a retreat of U.S. forces from the center part 
of the country into Kurdistan.
    And I think when you look--rather than trying to pick up 
each of these in detail, perhaps what I will do with the two 
minutes that remain is spend a little bit more time talking 
about one of them, and then I would be happy, obviously, to 
take questions referring to the others, and speak just a little 
bit more about the option of partial withdrawing of U.S. forces 
and a reorientation of what remains to training and supporting 
the ISF.
    Right now, the U.S. troop presence in Iraq isn't enough to 
control the environment completely or stabilize the country, 
but it does cap the level of violence. If you substantially 
withdraw the U.S. combat presence, you can reasonably expect 
the level of violence to increase.
    If we are going to take seriously the prospect of training 
and advising the ISF, that means we are not going to have the 
trainers sequestered somewhere safely in the rear in a 
classroom. They are going to be out with the ISF, advising 
them, operating with them, serving as mentors to them. If the 
environment they are operating in gets less secure, one can 
reasonably expect that the vulnerability of those advisors is 
going to go up, and they are going to continue to suffer 
casualties as a result.
    Second, though, and perhaps just as important, the smaller 
our combat presence in the country, the harder we make the 
training and advising mission. There are a lot of constraints 
facing our ability to train, advise and create a capable asset. 
Arguably, the binding constraint among them, however, is 
political rather than proficiency. It is sectarianism in the 
Iraqi security forces.
    As the country around them breaks up into factions, it is 
very difficult to hermetically seal a military organization 
from the society from which it is drawn. And what is pulling 
the country apart into factions is the sectarian violence level 
in the country.
    If the reduction of the U.S. combat presence causes the 
level of sectarian violence to increase, the centrifugal 
pressures on the society are going to increase as well. And 
that, in turn, is going to make the job of creating a 
disinterested nationalist security entity that can defend the 
interest of all Iraqis harder, not easier.
    Now, what that does is create a risk of self-fulfilling 
prophecy where, the smaller our combat effort, the harder we 
make the training effort and the more difficult it becomes to 
switch from the one to the other.
    I think if we judge that the surge is too unlikely to 
succeed--and again, I am a pessimist on the prospects for this 
surge. I don't think it is impossible it could succeed, but I 
think it is a long shot.
    If you think the odds of that long-shot are too long, I 
think a stronger case can be made for going to the opposite 
extreme and totally withdrawing the U.S. presence from Iraq on 
a timetable of ten months to two years. People vary on how long 
it would take to get out everything that we have deployed to 
the country, and beginning the reset sooner and cutting our 
losses in the process.
    The one other recommendation that I would offer to the 
committee is I think it is terribly important that not just the 
management of a withdrawal but also the investigation of 
various partial withdrawal options be undertaken in the 
serious, rigorous way that only properly staffed, military 
planning process can do.
    And I am afraid that, right now, the perceived politics of 
the situation are such that it is very difficult for military 
staffs to plan out any of these options in the level of detail 
that is necessary, especially given so many of the issues 
involved are diplomatic, political, economic and regional in 
ways that will inevitably tax the skill set and the 
capabilities of any orthodox military planning staff.
    In an environment where people are worried that an effort 
to plan out something other than Plan A could be viewed as a 
sign of disloyalty, it makes that planning effort very, very 
difficult for the military to conduct.
    One thing that I think would be of particular value for the 
U.S. Congress to do is to remove the political Hobson's Choice 
associated with the sort of planning by mandating by law and by 
requiring that military staffs, whether in theater or in the 
Pentagon, develop, with a proper level of rigor and detail, a 
set of alternative plans for either partial or complete 
withdrawal alternatives to the surge, not mandating that they 
be executed, but mandating that they be planned out in a way 
that can permit full evaluation of their pros and cons by those 
outside the planning process itself.
    Thank you.
    [The prepared statement of Dr. Biddle can be found in the 
Appendix on page 71.]
    Dr. Snyder. Thank you, Dr. Biddle.
    Colonel Hughes.

 STATEMENT OF COL. PAUL HUGHES (RET.), SENIOR PROGRAM OFFICER, 
CENTER FOR POST-CONFLICT PEACE AND STABILITY OPERATIONS, UNITED 
              STATES INSTITUTE OF PEACE, U.S. ARMY

    Colonel Hughes. Thank you, Mr. Chairman, for inviting me to 
present my thoughts about what I call consolidating gains in 
Iraq.
    While I remain very engaged in Iraq through my work at the 
United States Institute of Peace, what I present today reflects 
my own personal views based on almost 30 years of service in 
the United States Army and the time that I have spent in Iraq, 
where I served with the Office of Reconstruction and 
Humanitarian Assistance, the coalition provisional authority. I 
advised General Eaton on the organization of the Iraqi military 
and served as my institute's chief of party on two separate 
occasions. My comments do not reflect the policies of the 
institute, which does not take policy positions.
    As you well know, the Nation is seized with the war in 
Iraq, one of the most complex wars it has ever fought. This 
complexity can be characterized in many ways, but one 
fundamental aspect that must be understood for the United 
States to successfully interact over the long term with the 
Muslim world is that we need to understand this war involves 
issues rooted in power redistribution among groups of people 
who have never experienced the dynamic processes that the 
United States now demands that they implement quickly, namely 
those of political reconciliation.
    By saying that, I want people to understand that the notion 
that this is purely a sectarian war is a false notion. There 
are other causes here that are more related to power 
redistribution.
    Understanding this fundamental nature of the war is crucial 
to the development of our war aims and our national interests. 
So far, there have been several changes in both, and these 
changes have only served to confuse our regional friends and 
worldwide allies as to our ultimate goals. Additionally, this 
confusion has opened the door for our enemies to exploit.
    Today, the interests and the goals of the United States are 
usually reduced into soundbytes rather than studied in their 
true nature. They are complex and very demanding. As described 
in the national strategy document, ``Victory in Iraq,'' they 
are outlined into non-specific type periods, such as short-
term, medium-term and long-term, with just as non-specific 
components that all parties accept as important to the long-
term well-being of the Republic of Iraq.
    In reviewing these goals, it appears less likely that these 
can be attained over what America views as the short term. In 
fact, many of these suggest they will be generational efforts. 
The complex nature of the short-term goals suggest some of its 
components are not feasible and should be pushed back on the 
strategy's timeline.
    The obvious shortfalls in the short term related to 
political progress and democratic institution-building has 
hindered progress toward the medium- and long-term goals. These 
requirements lie outside the vast expertise and capabilities of 
the Department of Defense.
    Without progress in these two specific areas, political 
reconciliation and democratic institution-building, our 
military can continue to fight and occupy more of Iraq's cities 
and towns but will never fully secure those areas for a 
handover to Iraqi security forces. And absent that degree of 
security and handover, our military's eventual departure will 
simply open the door for the return of chaos.
    This assessment implies our military force may need more 
time to achieve their operational goals, as some of our 
commanders have recently suggested. Yet, their requests have to 
be balanced with the political realities of our country and its 
long-term national security interests.
    We are engaged in what some call a ``long war'' and others 
refer to as a ``global war.'' If this is true, then we must 
place both Iraq and Afghanistan campaigns in their proper 
perspectives. They are campaigns in a long, global war against 
extremists of all stripes that threaten our interests.
    Perhaps now it is time for us to recognize that we have 
achieved change in Iraq and that we should consolidate our 
gains and take a strategic pause in order to refocus our 
strategic gains, regroup and replenish our forces, repair our 
alliances, and regain the support of the American people before 
going back on the offense.
    I use the term ``consolidate'' from the perspective of a 
soldier. When soldiers consolidate on their objective, they 
organize and strengthen it so that they can make maximum use of 
their new gains position. In the case of Iraq, consolidating 
our gains will be messy and uncertain. It will require more 
time and resources to help the emerging Iraqi government 
organize and strengthen itself.
    But we do not need to continue expending the immense amount 
of resources used in our ground war in Iraq when we need them 
for our efforts elsewhere in the world. The challenge facing 
the United States is how it should best manage its involvement 
in Iraq while retaining capabilities of meeting its broader 
global security responsibilities.
    To meet those challenges, the United States should reassess 
its strategic goals in light of its regional and global 
interests. It should announce a date certain for beginning the 
redeployment of forces from Iraq. It should conclude a status-
of-forces agreement with the government of Iraq. It should 
resource and invigorate a comprehensive, political 
reconciliation program in Iraq.
    It should immediately act to restore and increase both the 
size of the Army and Marine Corps refit and reset units that 
have been in combat, ensure our special operations forces are 
being properly resourced, and care for the families of our 
military personnel.
    The United States should also repair damage done to our 
relations with our allies and special partners, and it must 
more clearly articulate U.S. policy in order to regain the 
confidence and support of the American people.
    In conclusion, we must maintain our focus on our primary 
challenges: the proliferation of WMD and the threat from 
extremists who threaten our homeland. We should not allow 
ourselves to expend our military forces, national credibility 
and treasure on a ground war that does not deal with our 
primary threats.
    Thank you for your attention and time.
    [The prepared statement of Colonel Hughes can be found in 
the Appendix on page 64.]
    Dr. Snyder. Thank you, Colonel Hughes.
    General Eaton.

STATEMENT OF MAJ. GEN. PAUL D. EATON (RET.), FORMER COMMANDER, 
  COALITION MILITARY ASSISTANCE TRAINING TEAM, IRAQ, U.S. ARMY

    General Eaton. Mr. Chairman, thank you very much for the 
invitation to speak here.
    I can't leave this room without commenting on the state of 
the American Army. I am going to talk about the American Army, 
the Iraqi army, current operations in Iraq, and the deficient 
diplomatic efforts that we have in the region.
    First, the American Army: We are under-funded, we are 
under-manned, and we are overextended. And we have to correct 
all three of those points.
    We have to grow the Army and the Marine Corps to meet the 
foreign-policy demands of our country. We have to commit the 
resources necessary to rebuild, refit our equipment, and to 
properly equip our forces both in the theater of operations and 
in training right now. We are having to shuffle equipment back 
and forth from units to conduct the training for deployment. So 
we have to correct that situation.
    The Iraqi army: We started the Iraqi army program to 
recruit nationally, make the army representative nationally, 
ethnically and religious, and to employ locally. The original 
plan was that we would recruit these men to defend the Nation 
from enemies from without. And that evolved into what we have 
to do right now in a counter-insurgency environment.
    The Iraqi army is still not properly equipped, and we still 
don't have enough men under arms to meet the demands placed 
upon the Iraqi army.
    And we have departed from a nationally unifying system. 
Originally, the army would have been a nationally unifying 
force, an instrument to provide for the unification and the 
integration of the country. We have departed from that, and I 
am not sure that is a good decision.
    My last information is that we are talking about 
reinstituting what we did with the Iraqi Civil Defense Corps 
(ICDC), locally recruited, locally employed, which gives us 
basically militias under a national uniform.
    Current operations: I think that what General Petraeus is 
doing right now is absolutely on the mark. It follows a very 
good article by Lieutenant Colonel Doug Ollivant about 
inserting forces into the region, into the neighborhoods, into 
the communities that need the security operations, and a 
departure from these very large forward-operating bases that 
heretofore we had been restricted to.
    I think what General Petraeus is doing is absolutely on the 
mark. The surge was very small, and it was actually a 
compromise with the Army because that is all we could do. We 
have not grown the Army to meet the requirements in Iraq or 
elsewhere. So the surge was a compromise, and the Army cannot 
sustain it.
    The Army status right now drives us to a reduction in 
forces in theater, and we have to lay it out. And I think that 
a 24-month period is about right to draw down combat forces in 
theater.
    If we don't do it and if we don't start it now, we are 
going to go back to something that General ``Shy'' Meyer talked 
about back in the 1970's, the hollow army. And his comment 
recently is, ``You may not know the Army is broken until after 
the Army is broken.'' The real issue is we have not surged 
diplomatically in order to meet the military surge, the 
military increase.
    A case study is up in the northern part of Iraq. The three 
northern provinces have their own economy, have their own 
government, have their own security forces. The Kurdish region 
is stable. What is not stable is outside the borders of the 
Kurdish region. We have a very large number of Turkish units 
massed on the borders, and that is a source of concern.
    We have to regionally divide Iraq and identify strong 
actors internal and strong actors external, bring them to a 
Camp David-type situation and hammer our the requirements to 
keep the entities outside and inside from falling apart.
    So that would mean you bring Barzani, Talabani, and the 
presidents of Iran and Turkey into the room and hash out the 
interests that both parties have, repeat that process with the 
Sunni region and Kuwait, Saudi Arabia, Syria and Jordan, repeat 
that with the Shia region and Iran.
    Regional debate, regional meetings orchestrated by the 
United States--that type of diplomatic surge is overdue and is 
the only way out.
    The best article I have seen lately is, ``The Road Out of 
Iraq Goes Through Tehran,'' and this Administration has 
heretofore refused to talk to Tehran. We have something going 
on right now, but our road out is through Tehran.
    Thank you.
    [The prepared statement of General Eaton can be found in 
the Appendix on page 59.]
    Dr. Snyder. Thank you, General Eaton.
    Secretary West.

 STATEMENT OF HON. FRANCIS J. ``BING'' WEST, FORMER ASSISTANT 
    SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Secretary West. Thank you, Mr. Chairman.
    I don't see a way out of this polarization, Mr. Chairman. 
There are two views, and you heard them now, of Iraq.
    View one is what I call the sectarian camp that says the 
essential problem in Iraq is the antagonism and the hatred 
between Sunni and Shia, and that is going to persist regardless 
of what we do. And therefore, the situation, in essence, is 
hopeless and, as Mr. Biddle was saying, if you believe that, 
better get out now than later.
    The other alternative is the alternative that General 
Patraeus and others say, that the root cause of the problem 
here is the terror driven by al Qaeda in Iraq (AQI). And 
because al Qaeda in Iraq kills, slaughters so many of the 
Shiites, that they keep the cycle of violence going. And if you 
can break AQI, you can break the cycle of violence.
    There is no compromise between those two positions. You 
believe one or the other.
    So, in the end, what we are talking about here is a 
military judgment about what is happening in Iraq. And none of 
us really are in the position that General Patraeus, General 
Odierno and General Gaskin are to give you their straight-from-
the-shoulder, and I think they are going to in the September 
evaluation of that essential issue.
    And I know that they are going to bring it up as the 
essential issue. I can say with full confidence, being back 
there in May and coming forward and the e-mails I get from the 
field, I never believed I would see Anbar swing the way Anbar 
has swung.
    I mean, when you are in the middle of a war, the question 
is, who is winning and who is losing? And right now, AQI is on 
the defense, not on the offense.
    I believe that if you would have this hearing in June of 
2008 on the current course, you would probably see that we have 
a substantial number of combat units out, probably pushed up 
the number of advisors we have, and those advisors, as was 
pointed out by the other members, would be in combat. They 
wouldn't be in the rear. So that we would be in Iraq for 
several years, as we are in Afghanistan, but we wouldn't be 
pushed out of Iraq.
    And I think that is the essential issue that this is going 
to come down to. Does one believe it is hopeless and we are 
losing, or does one believe that we can prevail and get our 
troops out? That, sir, in the end, I believe is a military 
judgment.
    The word that I have heard--and watching it for myself over 
there, I am really surprised by what I saw in Anbar. And Anbar 
was the toughest nut. AQI has been pushed back now out of 
Anbar. They said they were going to go to Baghdad. They lost 
some fights in Baghdad, and now they are up in Diyala.
    The nature of this war is the highway system. AQI has a 
darn good way of communicating with one another, and no one 
controls those highways, and can move 400, 600 kilometers in 1 
day, and they do. And we were fighting them in Fallujah in 
April of 2004. They moved out and went to Ramadi, 60 miles 
away. When we went back in with the Marines in November of 
2004, they went to Mosul, 300 miles away, and did it in 3 days 
because you can just drive up and down the highways.
    So in order to keep after AQI, you have to stay on them and 
stay on them and stay on them. And that is what I believe 
General Petraeus is doing now.
    I don't believe we intend to keep the kinds of troops we 
have over there for the long haul, but I am really interested 
in what he is going to say in September because I think he can 
give us a better military judgment than any of us can.
    Thank you.
    [The prepared statement of Secretary West can be found in 
the Appendix on page 56.]
    Dr. Snyder. Thank you, gentlemen, for your thoughtfulness 
in being here and thoughtfulness of your statements.
    Members, what I suggest we do--and in the other hearings, 
we have been pretty flexible in our five minutes. We have eight 
members here. I know of at least one other member coming. I 
would suggest that we are fairly strict about the five minutes 
so we can circle around and go through a second or even a third 
round if we get to it.
    What we will do is, if I start my questions, which is 
already apparently on, I have got five minutes. If I ask one 
question and you all get to respond to it, if you each take 
three minutes, we get to one-and-a-half of you. If you all 
could limit your answers to about one minute, given that we 
have got some flexibility here, but if can get to the point, 
then we will be able to get more of the thoughts out there.
    My question is, in the time that we have left, if you all--
I just want to give you a chance to respond in the spirit of 
intellectual exchange here on anything you have either read 
from the opening statements or have heard today from the folks 
at the panel you think need to be fleshed out a little bit more 
or that concern you or that you agree with.
    Let us start with you, Dr. Biddle, and just go down the 
line again.
    Dr. Biddle. Okay, well, with a minute I will respond mostly 
to Secretary West, with whom I am in a surprising degree of 
agreement.
    I don't think things are hopeless. I mean, the written 
statement, to a greater degree than I was able to do in the 
spoken statements, says there are two defensible alternatives, 
and they are either/and.
    Where I think I probably disagree is over how much better 
than hopeless it is. I think it is an extreme long-shot.
    AQI is not the totality of the problem. The President 
doesn't think that totality is the problem either. It is an 
accelerator of sectarian violence and factionalism. 
Unfortunately, sectarian violence and factionalism is a bit 
like the toothpaste in the tube. Once you have created a 
condition of radical fear among groups, it is then very 
difficult to overcome that and reverse the process.
    I don't think it is hopeless. I think the Anbar tribal 
rebellion is actually a model that provides such a glimmer of 
hope as we can get in Iraq. I think the way forward, if we are 
going to stay, should be oriented around maximizing the chance 
that we can replicate that model elsewhere.
    But we have to do that a lot. There are a lot of factions 
that need bilateral negotiations to settle ceasefires with. To 
do that across the whole country is not impossible, but it is a 
very tall order.
    Given that, what I think we are looking at is a long-shot, 
not a zero prospect, but a long-shot.
    Dr. Snyder. Colonel Hughes.
    Colonel Hughes. The idea that this war is essentially a 
military war, if anybody holds that, they are just wrong. This 
really does require a political settlement by the Iraqis.
    But as I said earlier, we are asking the Iraqis to 
undertake something that they have never had to do in three 
generations, and that is reconcile with one another. In the 
days of Saddam, if you had a difference with somebody, you just 
shot the person and you drugged their body through the streets. 
Now we are expecting them to figure out how to sit down and 
work together in a society where the entire lifestyle has been 
zero-sum gains. That is a very difficult proposition to demand 
of them.
    Now, my institute is working with some of the EPRTs, 
embedded provincial reconstruction teams, to help alleviate or 
to kick-start some of the local-level negotiations necessary to 
bring some fruit to this process. But it is a challenge. It is 
a challenge because the EPRTs are not properly resourced or 
funded to do this kind of work. Certainly we are not. But you 
also have the challenge of security there. And sometimes, if 
you let the Iraqis settle the security issue, you let their 
local solutions kick in, it is amazing what you can get done.
    And I will just hold it there.
    Dr. Snyder. General Eaton.
    General Eaton. We have to provide a forcing function for 
General Petraeus to get the government of Iraq to move forward. 
And the only thing that I see is the diplomatic efforts that I 
talked about elsewhere, but a timeline for departure, lay it 
out so he is able to tell the Iraqis that the end is coming, 
and that the patience of the American people are going to drive 
this, and that we lay out, as has been discussed previously 
this morning, the Plan B that illustrates to Iraq that there is 
a draw-down and it is going to be orderly and it is going to be 
predictable.
    And the message on all that is not to the enemy, it is to 
the people of Iraq and its government.
    Thank you.
    Dr. Snyder. Secretary West.
    Secretary West. It is absolutely a political local 
settlement. It will be settled locally in Haditha and Al Qaim 
and Baghdad, et cetera, which causes me to think that that 
feckless, poor, ill-performing senior government can be allowed 
to be feckless, poor and ill-performing for another ten years 
if you get some of the local conditions right and we won't have 
all of our troops there.
    So I see no contradiction between saying you can still have 
a mess but it won't be our mess as much because we won't be 
there. It will just be another messy government.
    But the key is, in my judgment, fracturing al Qaeda, and we 
are well on our way to doing that.
    In terms of keeping some sort of peace among the sectarian 
groups, I don't see that as being that much of a problem, 
because, unfortunately, they have already separated themselves 
to a large extent.
    The key is our advisory effort, because our advisors in 
essence are looking over everyone's shoulder, every single 
police chief, every single battalion. So the issue becomes, is 
the new agreement we are going to have with Iraq in December 
that goes before the United Nations, will there be an agreement 
with Iraq that we are going to continue with the current 
advisory system as we have it? Because these advisors are the 
enforcers of non-sectarianism.
    Dr. Snyder. Thank you all.
    And you hit exactly five minutes, so we appreciate that.
    It turns out, I don't think our clock system is working, so 
I will give kind of a gentle tap with the end here, Mr. Akin, 
when we get to the five minutes, if it doesn't work.
    Mr. Akin, for five minutes.
    Mr. Akin. Thank you.
    I think we have heard from quite a number of different 
witnesses--and I appreciate your comments, Mr. West.
    The concern that I have is, first of all, it seems like it 
may be a both end. The first issue, you have a military peace, 
that has to be taken care of. But you also have sort of a 
political peace, and that has to be dealt with as well.
    My sense is, is that from the brief we got from General 
Petraeus and also Ambassador Crocker was that they had really 
analyzed the whole situation and understood the nations around 
it really with internal politics going on, and they had a plan, 
and they are balancing and putting things together to make that 
work.
    My concern is not so much being able to break the AQI--
which, I think if we keep denying them territory, there is 
going to come a point where there is no safe place for them. My 
concern is, though, the political peace that, seems to me, I 
wouldn't assume the politics is necessarily going to straighten 
out even if we do get the military side. I think it is a both 
end situation.
    And my question is, have we given so much authority away to 
the Iraqis that they get it all messed up, we are kind of 
sitting on the sidelines, helpless? Or are we in a position--I 
mean, when Douglas MacArthur was in Japan, he let the Japanese 
write their constitution. They screwed it up, so he said, 
``That is no good. I will write one for you.'' He said, ``Use 
this one.''
    Are we in a position where--I mean, one of the things that 
could work very well on Iraq is federalism, which they don't 
understand but could allow a lot of autonomy to these different 
areas. We could limit the Federal Government to very specific 
functions.
    Are we in a position to make those kind of political 
changes? Are we kind of off on the side and not really involved 
to the degree that we should be politically?
    Secretary West. Mr. Congressman, General Eaton began a 
system with the advisors on the military side that is now 
working terrific. All the way down to every single company, 
there is an American advisor but he is also a conscience.
    The State Department, as General indicated, lagged badly, 
and it has only been under Ambassador Crocker that they have 
begun to insert some smart guys at different levels to say, so-
and-so is a bum and you have to get rid of him. But they have 
begun that.
    I think if you had a classified hearing and brought some of 
them in and say, ``Do you know who the bad apples are at the 
top that have to go?'', they could say, ``Yes.''
    My feeling is that Maliki isn't that strong. But I think 
you are going to have a lot of sloppiness at the top if you 
don't have this level of violence.
    General Eaton is right. We are behind it in terms of the 
diplomacy and struggling to catch up. But I think you can 
tolerate that if we don't have 135,000 Americans in the 
country.
    Mr. Akin. Thank you.
    Anybody else want to comment on the same question?
    Dr. Biddle. Sir, the issue of federalism is something that 
is part of their constitution. It focuses on the idea of 
federalism. The issue is the mechanics and the implementing 
laws that provide for that sort of thing.
    And that is being worked out through the constitutional 
reform committee's work, which has recently reported back to 
the council of representatives and has again been given some 
more homework assignments to work. But that is a very active 
issue among the Iraqi government right now.
    Mr. Akin. Are they starting to get the concept? Because 
when I talked to the State Department three years ago on a 
couple tours back, they said the whole idea of federalism under 
these guys is just like somebody from Mars. They just didn't--
everything was top-down from their point of view.
    Dr. Biddle. Correct.
    Mr. Akin. But you take a look at the Kurds and the Shia and 
Sunni, it seems like it is ready-made for a central 
constitution that says, ``All we are going to do is this, this 
and this, and everything else is going to be regional.'' I 
should think that would help a lot.
    Dr. Biddle. The constitution recognizes just one Federal 
entity at this time, and that is the Kurdish regional 
government. It does provide for the creation of other regional 
governments, but the implementing laws have yet to be worked 
out.
    But the U.S. Institute of Peace has worked at it for many 
years now with the national government, and we are as 
frustrated as anybody with the results that we are seeing. And 
that is why now we are pushing out into the provinces.
    And, for example, the work I did in March with the Baghdad 
provincial council was astonishing. It taught me an important 
lesson that we all need to understand. The Iraqis do not 
possess the tools with which to tackle these kinds of issues. 
And so they need the training. They need the mentoring in 
political reconciliation and the ideas of working through these 
various issues.
    But the provincial council members soaked this up like a 
sponge. It was amazing to me.
    Afterwards, I had the district council representatives from 
Sadr City and from Adhamiya--the adjoining predominantly Sunni 
district--those come to us and say, ``We want more of this 
training, and we want to do it together.'' And for the very 
first time in their history, Sadr City and Adhamiya sat down at 
the same table and started talking about issues.
    So at the grassroots level, there is hope, but it just 
needs to become a principal focus of what we are doing over 
there.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Akin.
    Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Thank you all for being here.
    I wanted to go back to the Anbar situation a little bit, 
because I think one of the important things that was said that, 
rather than focusing on top leadership necessarily in Iraq, 
that it may be through the grassroots efforts that more change 
is going to occur.
    But I also have felt a great concern from a few who believe 
that our working with the militias there might in the short 
term be a good idea but further out, that there is a real down 
side to doing that. And that it may work in areas where you 
have more homogeneity, but as you move through different areas 
of Iraq that that is going to be a problem.
    Could you all comment on that and whether you think there 
is a significant down side that maybe not necessarily ignored 
like now but perhaps not being addressed in the way that it 
should?
    Secretary West. I would simply say that each tribe in Anbar 
knows exactly where its boundaries are, and every one of them 
wants to push out, and every time they do now, the other tribes 
are pushing back.
    Really, one of the reasons for the awakening spreading 
among all the tribes was that it only began with about 16 of 
the 23 tribes. But the other seven quickly said, ``Wait a 
minute, we are going to start losing some of our smuggling. We 
are going to start losing some of these goodies that they are 
offering if we don't get on the bandwagon.'' So in self-defense 
they are going onboard.
    The tribes take care of the tribal sectors and are very 
jealous of the other tribe coming in. What I don't see out of 
the Anbar situation is that these tribes somehow would come 
together and be a threat to Baghdad. They are much more 
parochial, extremely parochial people. And they are interested 
in their tribal areas.
    General Eaton. My position is any ally you can find is 
worth having, and the original relationship that we had with 
them was very positive. They were very helpful and they were 
very willing to go to great lengths to expose themselves to 
some risk by coming into the Iraqi army.
    So the pursuit of alliances with the tribal factions and 
with militias, I think, is a very positive move on our part.
    Dr. Biddle. What we are presented with in Anbar right now 
is both a window of opportunity and a window of vulnerability.
    With the tribes banding together to push AQI, they are now 
trying to be brought into the recognized Iraqi police and 
military forces in the province.
    The question remains, how will the central government deal 
with these new approaches? Will they accept these new tribesmen 
in for training and such, or will they reject them because they 
are tribesmen and perceived to be a militia? That is a major 
concern right now.
    The prime minister, he feels that our activities in 
aligning with tribes and local groups is creating more militias 
that could potentially become a long-term threat to his rule. 
So I don't have a good answer for it right now because I am----
    Ms. Davis of California. Any sense to how the Shia 
population perceives that at all?
    Dr. Biddle. I am sure the Shia population--the political 
parties, let us call them that--that the Shia-dominated 
political parties do not like this development.
    But then again, let us recognize that the supreme Islamic 
council for Iraq, whatever they are calling themselves today, 
had the organization which was completely folded into the 
ministry of interior.
    General Eaton. Clearly, there are important risks either in 
arming local factions or simply in tolerating the continuance 
of local armed factions that they agree to fight people we like 
and stop fighting people that we would rather they not.
    I think at this point in Iraq, though, we are beyond the 
point which we have the option of turning to something that is 
low-risk, low-cost, high probability of success. I think if we 
decide for whatever reason we are going to continue and that we 
are going to give it our best shot, I think, at this point, our 
best shot lies through some program of exploiting something 
like the Anbar awakening through a series of bilateral cease-
fire negotiations with local actors which we hope will 
accumulate around the country.
    That the day in which we could hope to prevail in Iraq, by 
creating a government monopoly of force, and reducing the 
strength of all non-government actors to the point where they 
are marginal and unimportant, I don't think that is a realistic 
hope at this point.
    Ms. Davis of California. Where would you all put this 
strategy in terms of priorities and, I guess, hopes for the 
future? Is this a strategy that you think has high hopes for 
trying to turn the situation around or do you think it has 
relatively low? I got a sense from you, Colonel.
    Colonel Hughes. Well, in Anbar, it is a de facto, it is 
already done and now moving to other areas. I don't know how it 
will do in other areas, but I mean, in Anbar, this is 
yesterday's news. It is done, settled, they have moved on.
    Ms. Davis of California. Go beyond that for me, in terms of 
that as a model.
    General Eaton. It doesn't always work out. The Fallujah 
Brigade, our efforts back in April didn't work out terribly 
well. But it was worth a try, and I think that we may not be a 
100 percent success, but again, I think that any enemy that we 
can turn, whatever organization is effective in providing 
security, to bring them into the fold.
    Dr. Snyder. Dr. Gingrey for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you.
    And I thank all the witnesses.
    I want to first of all say welcome to the committee to 
General Eaton in particular, who was former commander of Fort 
Benning, home of the infantry, and I represented that area in 
Columbus, Georgia.
    I like you better as a general than I do as a civilian. 
General Eaton, I have to say that. I wish you were still in the 
military. I don't agree with everything that you have said 
since you have gotten out.
    I want to ask a couple of questions.
    And first of all, to General Eaton and to the Colonel and 
to Dr. Biddle, it seems that all three of you in your 
testimony, your presentations to us here this morning take a 
pretty dim view of the current situation and that you are in 
favor of getting out ASAP.
    I think the comment has been made, General Eaton, you said 
the road to withdrawal is through Tehran, through Iran. I would 
suggest the road of withdrawal will be through Kuwait, and on 
the highway of death. I think you understand that very well, 
General Eaton.
    And I would like to ask the three of you to comment on that 
in regard to the mass casualties that could occur with 160,000 
of our troops with all of their equipment going from Baghdad to 
Kuwait, trying to get out of that country.
    And also, General Eaton, you said very clearly that you 
think that we need to lay out the draw-down plan, not to give 
it to the enemy but to give it to the Iraqi people. How do you 
think the enemy is not going to obtain that plan as well and 
make it even more devastating? So comment on that for you, if 
you will.
    And then to Secretary West, who I am very much in agreement 
with, I would ask you what are your thoughts about permanent 
basing in Iraq. That bill is going to be probably presented to 
the House to vote on later this week in regard to whether or 
not we should have permanent basing, particularly in light of 
the embassy that we have there now.
    General Eaton. Congressman, thank you very much.
    And I will tell you the retirement has been liberating. I 
have enjoyed myself a lot here. And I have said some things 
that are fairly difficult to state, particularly with two sons 
in the Army.
    First, I do not advocate a precipitous withdrawal. I 
advocate a very methodical and very measured withdrawal of 
combat forces. The missions providing for the development of 
the Iraqi army and security forces and providing for the 
security of those men and women, I believe, is a continuing 
effort that we need to maintain.
    Second, I advocate that we lay this out for the Iraqi 
people, and the message is really to the Iraqi government to 
get their house in order, to fulfill the benchmarks that they 
said they would fill, and to get this thing moving forward. And 
the message is not to the enemy that we are leaving 
precipitously; the message is to the Iraqi people, we have to 
discipline the process. If we don't, we will be dragging 
through this for years and years, and we have got to have a 
force in function.
    As far as the withdrawal of troops, if you don't plan your 
way out of something, it will look a lot like Dunkirk, and any 
time you go in, you have to plan for your extraction. And the 
extraction while you are under pressure, while you are in 
contact, is very difficult indeed. And we are very exposed 
right now.
    If the Iranians thought that it would be in their interest 
to attack in great numbers, we would have a very, very 
difficult situation. I am confident that we have plans on the 
shelf right now to avoid that.
    Dr. Gingrey. General Eaton, thank you.
    With apologies to the other two witnesses, I am going to 
shift to Secretary West because I want the answer--and my time 
is running out--I want the answer in regards to your opinion on 
the basing.
    Secretary West. Sir, I think it would be so incendiary I 
would see no reason to even discuss permanent bases. By 
definition, our embassy is a permanent base, the way we are 
putting that thing up.
    But beyond that, I cannot imagine us not being in Iraq for 
about as long as we are going to be in Afghanistan. But we 
don't have to wave a huge flag about it. It is just going to be 
a fact of life.
    Dr. Gingrey. And we can go to the other two witnesses 
regarding the other question.
    Dr. Biddle. Sir, one of the things I said in my statement 
is that any withdrawal, any redeployment discussion of U.S. 
forces from Iraq must be done in close consultations with the 
Iraqis and regional partners, and that we would have a 
remaining element there, as Secretary West just indicated. 
Because we still need to do the training and the equipping of 
the Iraqi military.
    Just as important, we need to be able to conduct counter-
terrorism operations. And the Iraqi military is not going to be 
set to actually provide surveillance or security along their 
borders for many years if they are going to be tied down 
fighting internal insurgency.
    So I am not in favor of a precipitous withdrawal. This does 
have to be methodically based.
    In fact, as the withdrawal is planned or as the 
redeployment is planned, I would even suspect that there would 
need to be an increase of U.S. force structure to provide 
security along that particular avenue you just described.
    Colonel Hughes. Two very quick points. The first is, I 
think either of the two extremes are defensible. I mean, I 
don't think there is a clear case for withdrawal precipitous or 
otherwise. I think you can also make a case that a one-in-ten 
long-shot--and I think that is kind of the ballpark of the odds 
here--is worth taking if you think the costs of failure are 
high enough. It is the middle-ground options that I think are 
the weakest on the analytics.
    As far as the withdrawal itself goes, I don't think anyone 
would support a precipitous withdrawal, but if one is going to 
argue for withdrawal--and, again, I think it is a defensible 
case, I think we have to expect that we are going to have to 
fight our way out. And that withdrawal for it to be other than 
a rout is going to be a slow process.
    Again, I have heard estimates ranging from ten months to 
two years. I think the case of withdrawal, if one is going to 
make it, is you are going to face that sooner or later anyway. 
I mean, if the surge is, let us say, a one-in-ten long-shot, 
that means you have got a nine-in-ten chance that whether you 
like it or not, this is where you are going to end up in a few 
years.
    The issue, in all likelihood, is you want to do it later or 
do you want to do it sooner, and what does it cost you to defer 
it?
    Dr. Gingrey. Thank you, Mr. Chairman.
    Dr. Snyder. Our last person for questions who was here at 
the time the gavel went down is Mr. Bartlett for five minutes. 
And then we will go to Mr. Sestak, Mr. Andrews, Mr. Jones, and 
Mr. Cooper.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Colonel Hughes, you mentioned that this was not a war that 
we are involved in, it is a couple of campaigns in a war. It 
seems to me that the enemy that we now fight in Iraq is very 
different than the enemy we went there to fight.
    As I remember, the reasons for going to Iraq, which I had 
some concerns with and was called to the White House because I 
had those concerns, was there were weapons of mass destruction 
there. I saw no way they could get them to us. They could walk 
to Germany and France. And I made the argument if our allies 
weren't concerned about the threats, I had trouble 
understanding why we should be concerned about the threats.
    And Saddam Hussein was there. There were no weapons of mass 
destruction and Saddam Hussein has been deposed. And so the 
enemy there now is violence and al Qaeda.
    And in the second round, I want to come to the violence 
part of it. But as far as I know and judged from all of the 
testimony that we have had, that there was little or no al 
Qaeda before we went there. And so now the big fight is with al 
Qaeda.
    Did they arise de novo, or did they come in from another 
country? How did they get there in these large numbers?
    Colonel Hughes. When we entered Iraq in 2003, there were 
two organizations that we saw with General Garner that you 
could say were terrorist organizations. One was the mujanedin-e 
Knalq (NEK), which was the passively sponsored or supported or 
at least recognized force of Iranians that were based in Iraq 
that would conduct operations into Iran. And that force has 
been policed up. The other one was based in the Kurdish north 
on a mountain top that was very difficult to get to that could 
have been taken out without us having to invade Iraq.
    But without getting into history, what we see in Iraq with 
AQI now, al Qaeda in Iraq, is an Iraqi organization that has 
grown up--this is predominantly Iraqi now. It did begin with 
foreign leaders and foreign support, but today it is 
predominantly Iraqi. Today it is under a great deal of stress 
because of Iraqis, because Iraqi tribes are attacking them, 
because Iraqi citizens are reporting on their activities, and 
because the multi-national force is pursuing them.
    The question is, what is the threat to the United States? 
Is AQI a threat to the United States? Or is al Qaeda currently 
residing in Pakistan the threat? And I would submit that al 
Qaeda in Iraq is not the threat to our homeland. It is al Qaeda 
in Pakistan right now that is the threat to our homeland. And 
that is the issue we need to be taking care of.
    I mentioned that this is a campaign, just as we had World 
War II with many campaigns and Vietnam with many campaigns. And 
even in Desert Storm, we had three separate campaigns. You 
know, you can have varying levels of success in a campaign and 
still win the war, as long as you have strategic thought and 
guidance and vision about what you ultimately want to achieve.
    If we are going to focus on fighting a ground war in Iraq, 
I have to ask, what does this contribute to our ability to 
dissuade Iran from obtaining nuclear weapons or from getting 
after AQI in Pakistan?
    If the al Qaeda like any that we are fighting in Iraq is 
not a threat to our homeland, their goal is simply to get us 
out of Iraq. Their goal is to force us out. There were 33 
insurgency groups that have been identified in Iraq, and the 
one common identifier among all of them is get the foreign 
occupation out of Iraq.
    Once the Americans leave, there could be a lot of gun-play 
between these guys, and I suspect there will be. But 
principally, they and all the other groups, want us out of Iraq 
because we are a foreign occupation force. And that has been a 
traditional earmark of Iraqi nationalism for many, many 
decades. I mean, just ask the British.
    Mr. Bartlett. Thank you very much.
    Thank you, Mr. Chairman. I will yield back and wait until 
the second round for my next question. Thank you.
    Dr. Snyder. Mr. Sestak for five minutes.
    Mr. Sestak. Thank you.
    Let me tell you what I heard that fell upon me.
    First, Dr. Biddle, you said, as well as the general, our 
leaving is going to be challenging if not done deliberately. 
You remember, General, it took us to get out of Somalia, 6 
months after Blackhawk Down, 6,300 troops, and we inserted 
another 19,000 personnel. The 160,000 troops in Iraq and over 
100,000 contractors, anyone who thinks we are going to turn 
around tomorrow and not do it an a deliberate way without a 
turkey shoot on that one road, that is what fell upon me here, 
is a timetable withdrawal can't be precipitous.
    Then you spoke about training, and so did you, Dr. West. We 
have about 48,000 combat troops out of the 160,000 that is over 
there. That is all. We have got 8,000 advisors over there. Do 
we really think we are going to come down to 60,000 troops and 
build up the 20,000 advisors and have how many combat troops to 
prevent another Blackhawk Down?
    And that is what I heard from you. The head of the National 
Intelligence Council told us the other day that it is an art, 
not a skill, to determine which of those Iraqi forces would be 
loyal or motivated to protect our troops once embedded there.
    So those who want to leave behind a touch back, sort of 
like immigration touch back, you know, you kind of give it--
okay, we will leave some training troops behind. Well, I tell 
you, that really worries me after watching Somalia.
    And then, I step back and I hear, sir, about Al Anbar 
province and been there. That started before this surge 
started. They were coming over to us, those tribal chiefs after 
watching their 15-year-old sons being run over 15 times as they 
stood the families there, and they said, enough is enough.
    But when they look to the East, nobody in Baghdad, despite 
the more stable, security situation, militarily, saying come on 
in and be all you can be in our government.
    So I step back and come back to you, General, for my real 
question because I think the key is from you.
    The key, the road out of Iraq is through Tehran. And the 
National Intelligence council tells us that is we precipitously 
withdraw in 18 months a year ago, there would be instability in 
that country and chaos. But when asked, if Iran were to be 
involved in the negotiations, would it be a different outcome? 
They said tough question to answer but yeah, probably.
    So tell me, how do we get a safe redeployment with the, 
what I believe is my major concern, the strategic readiness of 
our military, improperly engaged throughout this world already 
here at home to have a better security for America via Iran, 
Syria, and Saudi Arabia. So from a military man who is saying 
it is diplomatic diplomacy I gather, how?
    General Eaton. Seventy percent of the Iranian population is 
supportive of normalization of relations between Iran and the 
united States. Iran occupies a terrific amount of boarder with 
Iraq. They are, in fact, astride our line of communication to 
Kuwait. Were they to embark upon an ambitious dismounted light 
infantry attack, they would have a terrific opportunity to 
cause us great harm.
    We are beginning to negotiate from a position of weakness 
and that is never a great position to be in when you are 
negotiating with somebody who is locally strong.
    Putting in a couple of aircraft carriers off the Iranian 
shores is a pretty good start. And the commitment to sit down 
and hash out what their interests are, what our interests are, 
and getting after a negotiated agreement or a best alternative 
to a negotiated agreement----
    Mr. Sestak. If I could, General.
    Yesterday in a meeting at the White House, Stephen Hadley 
said, private meeting--not private, it was private to be talked 
about but it was a small group--said, well, it is hard to 
negotiate with Iran because, A, we are in position of weakness; 
B, like Crocker said yesterday, they are involved 
destructively. They are fighting our people. It is almost as a 
going-in position.
    Do you agree with that part of it, that we have to have 
them seize their destruction before we negotiate this?
    General Eaton. We have allowed ourselves to be in a 
position of weakness. There are a great number of ways to get 
after Iran to improve the odds of success negotiations, and 
without violence. The international community, I believe, would 
be very helpful. And we are about out of my expertise right 
now, but very capable people can figure out incentives and 
disincentives to bring to the table with this President.
    Mr. Sestak. Thank you. I am out of time. But I honestly 
believe that doubling down a bad military bet isn't the answer 
and diplomacy as we redeploy is the key with those nations who 
have influence. Why don't we use it?
    Dr. Snyder. Mr. Andrews, five minutes.
    Mr. Andrews. I thank the witnesses for your excellent 
testimony this morning.
    Secretary West, I think you have exactly captured the 
dichotomy of public opinion between those who believe that the 
Islamist terrorists are the principal problem in Iraq versus 
those who believe sectarian violence is the principal problem. 
I think that is exactly right.
    I want to explore your analysis and your conclusion. With 
did AQI come into existence?
    Secretary West. I would probably say it was the battle of 
Fallujah was what really made AQI. When we backed out of 
Fallujah, that is when Zarqawi gathered so much strength that 
we had these weirdos and coyotes and wolves coming from all 
over the place for the next battle. And that was the turning 
point.
    Mr. Andrews. When would you date the emergence of AQI as a 
viable force to create disruption in Iraq, what date would you 
put on that?
    Secretary West. Oh, August of 2003.
    Mr. Andrews. When would you say----
    Secretary West. From then on they were a force to be 
reckoned with.
    Mr. Andrews. Well, when would you say they reached a point 
where their strength increased considerably?
    Secretary West. They became, in my judgment, the dominant 
force among all the different elements after they were able to 
regroup in Mosul in November of 2004 after they had been----
    Mr. Andrews. Okay.
    Secretary West [continuing]. Kicked out of Fallujah.
    Mr. Andrews. And prior to November of 2004, the average 
attacks per month in Iraq were just shy of, I won't say 
average, the height were around 3,000, the lowest were 1,800 so 
the average is going to be 2,300 or 2,400 attacks a month, who 
was engaging in those attacks, if AQI was not yet a significant 
force.
    Secretary West. The psychology of beginning to perceive you 
don't have anything to lose by striking at somebody and you 
have a high degree of testosterone, you are out there with 
different kids, would cause practically anyone to pick up a 
weapon, go out and start shooting.
    Mr. Andrews. I appreciate that.
    Secretary West. So the number of incidents----
    Mr. Andrews. My time is limited. I wanted to ask you to 
answer my question, though, which was that prior to November of 
2004, who was propagating these 1,800 attacks per month? AQI 
wasn't much of a force----
    Secretary West. Correct. AQI was not the dominant force. 
You had many different insurgent groups who were hostile to the 
Americans.
    Mr. Andrews. Do these insurgent groups still exist. Have 
they gone away? Have they evaporated?
    Secretary West. That is the interesting thing, sir, that if 
you look at Anbar where most of the attacks took place, over 50 
percent of them, the attacks now from last year in July at 400 
have dropped to 100. So it is the same tribes that were on the 
other side shooting that now are no longer shooting but they 
haven't come over as individual insurgent groups.
    Mr. Andrews. I wanted to ask General Eaton and Colonel 
Hughes, if I read your testimony correctly, I think that you 
think that the prospects for political settlement are enhanced 
with some kind of orderly withdrawal by the United States. Did 
I correctly state that in both of your cases?
    Okay.
    General Eaton. Correct here.
    Mr. Andrews. General Eaton, what do you think that 
political settlement might look like?
    General Eaton. Political settlement. Are you talking about 
the government of Iraq?
    Mr. Andrews. Yes.
    General Eaton. We have heard discussion today and pretty 
articulately laid out that a relatively weak federalist 
approach to governing Iraq is probably the way out with strong 
local governments.
    Mr. Andrews. What do you do about the problem of mass 
internal migration of Shia Iraqis from central Iraq which is 
predominantly Sunni area, what do you do about the people who 
are living in integrated neighborhoods and towns?
    General Eaton. Facilitate that.
    Mr. Andrews. Facilitate the migration----
    General Eaton. It is happening right now in a brutal way.
    I believe our efforts to facilitate the migration or re-
migration as we are watching right now with the northern part 
of Iraq near the Kurdish boarders----
    Mr. Andrews. In my remaining time I would ask Colonel 
Hughes or Dr. Biddle how they think the government of Saudi 
Arabia would react to such a plan where there was the existence 
of a large Shiite republic or large Shiite quasi-state on its 
borders?
    Dr. Biddle. In my contacts with the Saudis, they would not 
view that as favorable to their security interests. But I would 
like to revisit this issue to what some have referred to as 
``soft partitioning of Iraq.'' I think that would be a very, 
very dangerous path for the United States to engage in.
    The fact, the history, remains that soft partitions don't 
happen. All we have to do is look at Africa. We can look at 
India. We can look at Pakistan. We can look at the Balkans. And 
let me remind you that the level of violence and destruction in 
Iraq today doesn't even come close in a per capita sense what 
occurred in Bosnia. Not even close.
    Mr. Andrews. Thank you very much for your testimony. I 
appreciate it.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you.
    And General Eaton, I want to say that I appreciate your 
service when you were in the military. But I appreciate you 
even more now because of your honesty and integrity.
    I wish my friend from Georgia was still here to hear me say 
that but I mean that most sincerely.
    I want to thank you, General Batiste, General Zinni, 
General McCaffrey, and anyone else I have left out by name for 
being willing to stand up and try to inform the Congress and 
the American people about the truth.
    If you will give me a yes or not to this, and I have got 
one other question.
    General Batiste in an ad in April this year--I have always 
said--this is General Batiste--I have always said--excuse me--
Mr. President, I have always said that I will listen to the 
request from my commanders on the ground. General John Batiste. 
Mr. President, you did not listen.
    Is he listening now in your opinion?
    General Eaton. No, sir, he is not.
    Mr. Jones. Okay, thank you.
    The second part and because of your comment and maybe 
others if you want to add, please feel free to do so without me 
calling you by name, I have Camp Lejeune Marine Base in my 
district. I have great love and respect for those in uniform no 
matter which branch. In April of this year, there was in a 
North Carolina paper the heading, ``Deployed, Depleted, 
Desperate.'' There is a question for those would will support 
President Bush's strategy to stretch out the Iraq war until 
after he has left office and for those who think we should be 
prepared to continue our bloody operations of Iraq for five to 
ten years.
    Are you ready to support--this is the article, not be 
speaking, this is the article--are you ready to support 
reinstating selective service, the draft, even if that means 
your sons and daughters or your grandchildren will have to put 
on the uniform and go hold these cities and towns of a nation 
in the middle of a civil war?
    A couple other points and then I am going to stop.
    The President's strategy of adding 30,000 or more troops in 
Iraq may be the straw that breaks the camel's back. They were 
not 30,000 extra troops sitting around doing nothing when the 
call came.
    Last point. The demands of the war on our troops and their 
aging, worn-out equipment already has pushed the annual cost of 
enlistment and re-enlistment bonuses above $1 billion and 
advertising to about $120 million annually.
    Do we have five years before the Marines and the Army are 
broken?
    I will go to you first, General Eaton, and then anybody who 
would like to speak.
    General Eaton. No, sir, we do not. And one of the appeals 
that we have that Generals Batiste and others is we have got to 
grow the armed forces to meet the foreign policy demands. We 
are funding cold war systems to an extravagant degree.
    Now, the theory of control of the commons with large navies 
and air forces, all that we have to manage. But we are 
shortchanging the Army, shortchanging the Marine Corps, and our 
numbers of personnel whoa recommitted to doing the hard work of 
today, and we are not funding these services properly in order 
to re-arm and refit.
    The outcome of that is that--my firstborn son is now in his 
sixth month of a 15-month deployment. We are using a backdoor 
draft. I don't yet endorse the draft. I have to state because 
this came up, my wife endorses the draft because she told me to 
say that.
    But I will tell you the draft, you get into the tyranny of 
large numbers and you will compromise the very technologically 
and training-proficient force that we have.
    Mr. Jones. Real quickly, I would like to go to each one.
    Do you support Senator Webb and Senator Hagel's positions 
that these men and women in uniform need more time to rest and 
be home before they are sent back over. And if I could start 
with you, Secretary West and go right down, yes or no?
    Secretary West. No, sir, I do not.
    The big difference on this panel is starts with General 
Gaskin whom I admire tremendously. I am sure you do from Camp 
Lejeune. He said we turned the corner in Anbar. I do not 
believe I agree entirely with pushing more infantry, agree 
entirely that the Army and marine Corps need more.
    But I do not believe that we are going to be seeing this 
surge indefinitely at this level.
    I think the big difference here is that Mr. Biddle said he 
gave it a one in ten chance. When I came back in April, I said 
it was a 50/50 bet. From what I have heard from my e-mails from 
the marines, I now put that as a six in ten chance that we can 
pull this off.
    Mr. Jones. Mr. Secretary, I need to get an answer to the 
question about Senator Webb and Hagel. Yes or no would do it 
for me since my time is up.
    General Eaton. I support the Senator Webb, Senator Hagel 
approach.
    Dr. Biddle. I do, too, sir.
    Colonel Hughes. I do not.
    Mr. Jones. Thank you.
    Dr. Snyder. Thank you.
    Mr. Cooper for five minutes.
    Mr. Cooper. Thank you, Mr. Chairman. I appreciate your 
holding this extraordinary series of hearings. If only we had 
had a similar level of scrutiny years ago, Members of Congress 
would understand a lot more about the problem.
    I would like to ask which ever panelist would like to 
respond, for those who point to progress in recent news in 
Iraq, how can we be sure that progress will be lasting given 
what seems like an inevitable troop reduction?
    For example, if you look at things like the progress that 
apparently has been made in Anbar, if you withdraw those 
troops, how do we know the tribes will not switch allegiance 
again or change their behavior? Sadr is dealing with the Maliki 
government, how do we know those won't change substantially 
once we reduce our presence? Enforcement of things like, you 
know, the remarkably tenuous oil law that seem almost too much 
to hope for. The sectarian or terrorist violence, however you 
want to characterize it. You move a lot of the checkpoints and 
oversight, what happens then?
    I wonder, and we trained, what, hundreds of thousands of 
Iraqi troops. They leave one week a month to go back home, 
deposit their pay. We don't really know where they go and what 
they do. We don't know if they are part of the reason for the 
spike in violence.
    So it is a remarkably confusing situation for any policy 
maker but if you could help enlighten me on that issue, I would 
appreciate it.
    Dr. Biddle. I think it is very hard to make progress 
lasting after a complete departure of U.S. troops. Historical 
analogies are always problematic but I think the best analogy 
to the situation we have in Iraq are civil wars back in the 
Balkans where the route to civil war termination is negotiate 
some sort of settlement among the parties but because the 
parties don't trust each other with guns, a third party to act 
as peacekeeper is required for those deals one reached to be 
stable so the spoilers don't blow them up within a week of the 
ink drying.
    And I think unless, if one takes seriously the idea that we 
are going to stay, do our best to produce stability, the route 
to it is going to be through bi-lateral deals through something 
like the Anbar Awakening. I think the implication of all that 
is to make it stable is going to require a third party presence 
over a generational duration as it has in other situations 
where we have seen similar ethnic, sectarian, and other civil 
conflicts.
    Mr. Cooper. The reducing our forces might make it more 
sustainable because there would be less op tempo stress or----
    Dr. Biddle. Reducing our forces enables us to reset our 
forces faster. Reducing our forces removes one of the primary 
caps on the violence levels in Iraq if we do it prior to 
negotiated settlements through some significant fraction of the 
country. Reducing our forces to the point where they cannot act 
as effective peacekeepers following a negotiated settlement to 
the conflict makes that very negotiated settlement of the 
conflict unstable and unlikely to persist.
    Colonel Hughes. Sir, the notion that the United States can 
be a peacekeeper in Iraq is weak because we are a belligerent 
and Iraqi people see us as belligerent. The notion that the 
United States can assist, for example, in the demobilization, 
disarmament, and reintegration of insurgence back in the civil 
society is faulty on the same basis. We need a third party. I 
agree with Dr. Biddle, but it cannot be the United State 
because we have as much blood on our hands as any of the 
insurgent groups have over there.
    Mr. Cooper. I just have a moment remaining. I am not sure 
if anyone has asked the warfare and information age question 
yet. But I worry that we have made the al Qaeda brand 
unintentionally and that encourages their almost automatic 
network franchising that is something that perhaps our military 
is not as adept at dealing with as they should be. Am I 
mistaken in the view?
    Dr. Biddle. I am not sure we understand your question, sir.
    Mr. Cooper. By focusing on a few people in Pakistan, that 
we apparently did not succeed in routing out in Tora Bora and 
the massive worldwide publicity, gave a certain celebrity 
status----
    Dr. Biddle. Yes.
    Mr. Cooper [continuing]. To those folks. And then, even 
European countries claim some association or affinity through 
the Internet with these folks, claim training techniques and 
others. Then all of a sudden we have metastasized the problem. 
So in today's information-age world, brand is important and a 
lot of people get self-fulfillment and identity in that.
    And then, you add the free franchising capability----
    Dr. Biddle. Right.
    Mr. Cooper [continuing]. No payment is due. All they have 
to do is claim affinity then somehow there own self-esteem is 
bolstered by this.
    Is this a different way of dealing with the enemy?
    Dr. Biddle. You are correct in your understanding of that, 
sir. They are very savvy in their ability to handle the media.
    Mr. Cooper. But are there any effective U.S. 
countermeasures to that? We recognize what they are doing but 
how do we oppose that? It almost seems like beyond the 
comprehension of----
    Dr. Biddle. Well, one possible approach to this at the 
level of national foreign policy and strategy is with the enemy 
we have declared war on in this conflict is very ill-defined. 
Al Qaeda is the best-known brand, if you like, within this 
vaguely-defined group.
    But we have thrown the net very broadly over a large 
collection of terrorist organizations that might or might not 
have thought beforehand that they are allies of al Qaeda.
    Arguably what we have done to make this problem, you know, 
worse than it might be, is by creating a very recognizable 
brand and then encouraging lots of others who weren't--I don't 
know how far I want to force this marketing metaphor--who 
weren't necessarily part of the company before to think about 
becoming affiliates because what we have told them essentially 
is the only difference we see between you, Hamas, Hezbollah, 
whomever else in al Qaeda is the ordering which we mean to 
destroy you.
    That makes that brand of al Qaeda substantially more 
appealing to organizations that normally have a great deal of 
difficulty collaborating with one another.
    If we were clearer on the definition of the enemy in the 
war, perhaps we could affect not necessarily the salience of 
the brand per se but the attractiveness of the brand in 
bringing in marginal and infra-marginal actors that might 
otherwise be disinclined to cooperate with them.
    Mr. Cooper. My time has long since expired.
    Thank you.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And I am sorry I arrived late. I had a Homeland Security 
Committee at the same time. And so excuse me, gentlemen, if I 
ask a question maybe you answered earlier.
    I did read your testimonies and, you know, I personally I 
believe we are getting out of Iraq. We just don't have the 
resources to stay there much longer and it is just a matter of 
time so I think these hearings are incredibly important.
    And I say that, you know, having, you know, looking at the 
leadership that we have out there that we keep touting, 
Petraeus, Odierno, and all of these others and I just have to 
say, you know, I was there the day after we caught Saddam in 
Iraq and I asked General Odierno, how many insurgents are left 
and he said, oh, we have turned the corner. We are done. We 
have just got a few left, Congresswoman. So how many would just 
a few be? We went back and forth and finally he told me 357. So 
Odierno is the general out there running some of this stuff and 
Petraeus. Petraeus was there when I was there and he was 
training up the Iraqi and doing the Iraqification of the army.
    It hasn't gone anywhere. And recently, I was out there and 
saw General Petraeus's operating engineer in Baghdad and the 
four provinces there, and I said, ``Well, how many policemen 
and Iraqi army do you have in your provinces?'' And he told me, 
``About 36,000.'' I said, ``I think you are completely wrong.'' 
And an hour later, I saw Petraeus, and Patraeus said, ``He is 
completely wrong. It is double that.''
    I mean, I, quite frankly, don't think even the people on 
the ground know what is really up out there. It is just a 
matter of time.
    So here is my question--because we are going to get out--
what are we going to leave? How are we going to leave? I think 
that is what much of this we are all grappling with, what is 
the best plan?
    And we go back to this whole intent, I look at, Dr. Biddle, 
your testimony said each of Iraq's neighbors have vital 
interests in Iraq. Syria and Iran. How do we get them into 
talks to make them understand we need to leave to leave this 
place without it going to hell? Or do you just think that they 
want to see that happen?
    And maybe we can start with Dr. Biddle and go down the 
list?
    Dr. Biddle. Well, with respect to Syria and Iran, but also 
the neighbors generally, each of them, obviously has vital 
interest in Iraq. They also have some degree of shared interest 
with us and some degree of conflicting interest with us.
    The ideal outcome for Syria, Iran, and Iraq is not the same 
as our ideal outcome. But at the same token, none of us wants 
chaos and ongoing condition of anarchy in the country.
    But the challenge in diplomacy with respect to the Syrians 
and Iranians is to take the bit of this where our interests and 
their interests converge--nobody wants anarchy--and somehow or 
another deal with the parts where our interests are in 
conflict. Iran wants a safe proxy with a Shiite-dominated 
government in Iraq for example, and we would prefer not to have 
an Iranian proxy in the form of the Iraqi government.
    That is a very challenging diplomatic problem in part 
because of all the other problems in our relationships with 
these two countries and the natural temptation on the part of 
both Syria and Iran to use our interests in Iraq to extort from 
us things that they want in other areas. And given that our 
leverage over them is weak, we have already been trying to 
apply leverage to Syria and Iran to change their policies on 
all sorts of things for a generation. We have shot most of our 
ammunition in that sense.
    Given that we don't have a lot of easy alternatives to turn 
to, economic sanctions, for example, I think what we are 
probably going to face is a situation where if we really want 
them to come a long way in our direction in this negotiation, 
it is probably going to require quid pro quos on other issues 
that we are likely to find very expensive. I think some of the 
more important dimensions of quid pro quo are, for example, the 
nuclear program for Iran, and for the Syrians, for example, 
influence in Lebanon.
    I think it is terribly important that we engage them 
diplomatically as a way of exploring just how big is the common 
interest zone, if you like, in this bargaining space as opposed 
to the conflicting interest zone. Maybe we can find some more 
shared interests in there that we can exploit by talking with 
them.
    At the end of the day, it is far from clear to me how much 
of the two really important quid pro quos this Administration 
is willing to yield in order to get their assistance in Iraq. 
And even if they did, how much their assistance in Iraq is 
worth.
    Clearly, Iran, for example, has been tremendously unhelpful 
in Iraq. But at the same token Iran's proxies in Iraq don't 
share Iran's interests completely either whether they can get 
them to do what we want them to do isn't clear either. So we 
should talk but it is an expensive and fraught process.
    Ms. Sanchez. Anybody else on the panel?
    General Eaton. Egypt did not recognize Israel out of the 
goodness of Anwar Sadat's heart. He didn't wake up one day and 
fall in love with the Jewish state. It became a very expensive 
endeavor on the part of the United Stated to bring him along.
    That kind of negotiation is simply hard work among 
diplomats to work out what Dr. Biddle alluded to.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Ms. Sanchez.
    Gentlemen, we are going to start a second round. It will be 
the same format.
    And I will begin for five minutes.
    I wanted to ask the question with regard to what could come 
if things don't go well with regard to the United States troops 
present. What can go wrong with regard to the Iraqis. I think 
that, Dr. Biddle, you referred to that we are capping the 
violence.
    There have been a variety of different predictions about 
what could happen if we did a precipitous withdrawal or just 
left in the current situation. Last week, we heard from Dr. 
Daniel Byman, and in his written statement, and he followed up 
with it when we asked him about it. And he said that if--he 
reluctantly has concluded that we need to leave. But his 
conclusion is the result will be hundreds of thousands, if not 
millions of deaths. Hundreds of thousands, if not millions of 
deaths.
    And I pursued it with him and said, you know, substantial 
numbers of that are going to be kids. Are you saying that when 
we leave, that there will be hundreds of thousands, if not 
millions of deaths of children? And he acknowledged that is his 
prediction based on studying of civil wars and everything like 
that.
    My question is, where do you all foresee or see from your 
different perspectives our responsibility as a nation as the 
group that took out Saddam Hussein, took out a police state. 
They had their own kind of violence but it was a different kind 
of violence that didn't result in the kind of numbers in recent 
years as Mr. Byman predicted.
    What is our responsibility or morality? We used to talk 
about Secretary Powell's statement, if you break it you own it. 
And we, I think, we and our military, General Eaton, and the 
Congress, and the American people, if we saw million of people, 
including millions of civilians die in a fairly short period of 
time, that may do something to our psyche as a nations.
    So my question is, where is our responsibility or morality 
regardless of what you think about the different options out 
there? Secretary West.
    Secretary West. Again, I am the odd one out here because I 
don't see the degree of the pessimism but if you start with 
your quitting, if you start with we are leaving because we 
consider a civil war inevitable and therefore, we are just 
packing up and going. Once you have quit, you have no control 
over what happens after you quit.
    And I think we would, in this country, look at ourselves 
the way we did after Vietnam and it would be a bad time for us 
for about five years, both in our own self-esteem, how others 
look at it, and some of us would argue that we had a moral 
responsibility that we let down on unnecessarily and other 
would argue, no, we had done all we could and we have a bitter 
debate but we wouldn't have a national consensus about our 
moral responsibility.
    Dr. Snyder. General Eaton.
    General Eaton. Nations have interest that don't have 
friends. If it is a vital interest, nations will act. The 
argument based on moral grounds didn't with respect to Vietnam. 
We basically allowed South Vietnam to go down in flames because 
we withdrew support for the South Vietnamese army.
    It is different in Iraq. I think the outcome can be very 
detrimental to this nation's vital interests and certainly to a 
lot of other nations dependent upon the oil coming out of that 
region. Because I think the whole place will collapse if we 
have a disaster in Iraq.
    Dr. Snyder. Go ahead, Colonel Hughes.
    Colonel Hughes. Sir, the American people bear a moral 
responsibility to the people of Iraq for what has gone on over 
there. And it transcends the scientific, almost theological 
discussion about vital security interests.
    One thing that we can do to help mitigate whatever occurs 
is to fix the refugee admission issue here with the United 
States. There are many Iraqis who are fleeing the country, 
predominantly are Damascus and Amon but now it is growing in 
Cairo. And all of my contacts throughout the Middle East tell 
me this is viewed with great concern that this could become 
another destabilizing factor in the Middle East just as the 
Palestinian refugee issue destabilized so many places in the 
Middle East.
    We need to fix the refugee situation and make it easier for 
the United States to fulfill its obligation to those Iraqis who 
have worked with us and bring them into the country.
    Dr. Snyder. Dr. Biddle.
    Dr. Biddle. I think we have a terribly important moral 
responsibility to Iraqis that as moral philosophers would put 
it, aught implies can. You only have a moral responsibility to 
do things that are possible.
    The question of whether or not it is possible for us to 
stabilize the country is debatable at this point. I think it is 
possible but improbable. How improbable it has to be before you 
decide you can no longer effect this in trying only magnifies 
the moral problem by increasing the death toll associated with 
the effort is a judgment call, which again, is partly why, I 
think, either of the two extremes is a defensible position.
    One place where ought----
    Dr. Snyder. Let me interrupt and we will go to Mr. Akin. 
You have been very clear that you feel U.S. troops are 
currently capping the violence.
    Dr. Biddle. Yes.
    Dr. Snyder. Currently.
    Dr. Biddle. Yes. And we could----
    Dr. Snyder. And do that for a sustained period of time.
    Dr. Biddle. Well, the challenge is how long can we continue 
to that before you get what perhaps is the inevitable.
    Dr. Snyder. Right.
    Dr. Biddle. And the act of continuing postpones the deaths 
of some Iraqis in exchange for accelerating the deaths of some 
Americans. So the moral calculus isn't obvious either way.
    Once place where ought and can come together, though, as 
Colonel Hughes is pointing out with respect to the refugee 
problem. There is an areas where our responsibility can be 
addressed by things that we can control. And I would agree with 
him forcefully that I think that is an area where we need to 
take action.
    Dr. Snyder. Although we should not think that amending our 
immigration laws to deal with probably tens of thousands of 
Iraqis is somehow going to take care of any responsibility we 
may feel as a nations toward a civil war in a country of 25 
million people.
    Mr. Akin for five minutes.
    Mr. Akin. I appreciate all of your perspectives in helping 
us on these interesting questions.
    I would ask you now to--let us stand way back away from the 
whole situation. Some of us have sat on the Armed Services 
Committee here for a number of years. And I guess what I am 
interested in is what is the take-away? What have we learned? 
Let us assume this problem was either fixed or we ran away from 
it and was a disaster, either which way, but what are the 
things that we should learn?
    Now, my impression, I guess, sometimes we get to ask 
questions or we can also give answers. You know, my impression 
is, is that some--I guess it was almost 20 years ago this 
committee met with three different militaries that represented 
the United States. One was called the Air Force. One was called 
the Navy. One was called Army. And we said we want you guys to 
be one. We called it Goldwater Nichols. We talked about 
jointness.
    That has been, by most people's assessment, highly 
successful.
    My sense is the take-away here is we need to carry 
jointness beyond just the military but perhaps to state and 
commerce and the other groups or at least have these different, 
what do you call them, Embedded Provincial Reconstruction Teams 
(EPRTs) or whatever they are, but the group that can go in and 
deal the banking question or oil question or hospital or 
whatever it is and beyond just specifically military things.
    That is my take-away. We need to have jointness but I am 
open-minded. Everybody gets a minute shot here. What is the 
number one take-away?
    Secretary West. Sir, I will start at this end of the table 
and just go down it.
    To me it is in the society at this particular point in 
time, wars, regardless of the tiny level of casualties compared 
to others or compared to anything like drunk drivers killing 
people, or something, is still so horrendous how we view things 
that I would say it is the notion that we must a belief in 
ourselves that causes a joint sacrifice by the entire nation 
before we ask our sons and daughters to go to war. And we did 
not have this time.
    Mr. Akin. Joint consensus?
    Secretary West. Joint, sir, in that it is the Nation as a 
whole that says, we are in this as a nation and we will 
sacrifice as a nation because this interest is vital. Ann if a 
President can, say you can't do it on the cheap and if the 
President says, I don't think I have to bother about that, then 
I don't think we should go to war.
    So my great lesson would be, if you can't get the country 
to unite for a sacrifice, don't do it.
    Mr. Akin. Thank you.
    General Eaton. That was pretty eloquent.
    I would also offer that our state department is not 
properly organized nor is it properly resourced nor are its 
personnel policies appropriate for the world we live in today.
    Regional commands are working very well in the Department 
of Defense. I would go after a regional command approach for 
the State Department. They need a bigger budget and they need 
different personnel policies so that we can direct their people 
to do the things that we are asking them to do today they are 
not doing in the EPRTs.
    Mr. Akin. Thank you.
    Colonel Hughes. Sir, as you know, I worked on the Iraq 
study group and in doing the work, the big lesson that came out 
is exactly what Secretary West just raised. You have to have a 
national discussion about why the Nation wants to go to war 
before the first deployment occurs connected to those 
operations.
    We did not have that. it should have occurred in 2002. The 
Iraq study group was almost retroactive in restarting that 
debate. And that is the lesson all of Americans need to hear 
and take to heart.
    Mr. Akin. Thank you.
    Dr. Biddle. And one lesson we should learn and one that we 
probably will but shouldn't, the one that we should--although, 
again, as Colonel Hughes said, the importance of dissent in an 
open marketplace of ideas. It is not clear that the Defense 
Department in 2003 was sufficiently opened to a diversity views 
to allow them to make good decisions in extremely complex 
environments.
    The lesson I am afraid we will learn that I don't think we 
should is that we went from a single-minded focus on major 
combat as the only primary mission for the U.S. military. And 
it ill-served us in Iraq, so we should now go to a single-
minded focus on counter-insurgency and conflict as the only 
mission we should organize the U.S. military around.
    The future, I suspect, is more diverse than that. The sheer 
difficulty of simultaneously doing two or three things very 
well should not be underestimated. The danger that is 
enormously great that that will become a recipe for mediocrity 
at many things altogether as once. The business of avoiding 
single-minded focus on any single military challenge is 
organizationally and culturally much harder than it looks and I 
am concerned that the single-minded focus that we had before 
could be replaced by one that will serve the United States no 
better.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. We have been joined by Mr. Saxton, and without 
judgment, he will be allowed to participate in the questions at 
the end of this round.
    Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you.
    Thank you, gentlemen, again, for being here.
    And I appreciate the fact that you brought up, you know, 
are we a military at war are we a nation at war? The veterans 
in my community ask me that question and I think that it is 
something we need to address and we somehow kind of pushed that 
aside and had we approached it differently, perhaps we would be 
in a different spot today. I don't know if any of us know that.
    I wonder if you could continue perhaps a little of the 
comments you just made because I think the lessons learned is 
something certainly in the services that we know is applied. 
And what do you feel that the Congress has really missed in all 
this?
    Is there some opportunity here to address issues whether it 
is the leaving, the part of leaving and I think Secretary West, 
I think you mentioned that the Congress plays a role in this 
obviously, in the way that we talk about it.
    At the same time, we have an issue of whether any way that 
we talk about it is a sign of weakness. I think, Dr. Biddle, 
you mentioned Congress should mandate it.
    What is it that we need to do that perhaps different from 
the conversation, the discussion today?
    Dr. Biddle. Maybe I will start at this end this time.
    I think the perception that discussion and debate is 
weakness is much more sustainable when there is not much 
discussion and debate going on. If it is an ongoing every-day 
feature, the national dialogue about national security, then it 
doesn't get represented as because it is something that only 
happens when failure is apparently looming, it is therefore a 
signal of failure.
    I think a healthy debate at all times in which people's 
patriotism is not called into question by their willingness to 
question the very complex subject matter at take here, is 
terribly, terribly important.
    But again, both within the Congress, but within the 
executive branch. One of the difficulties we have now is 
because this debate has been muted until fairly recently, there 
is now a great deal of concern within the executive branch that 
thinking through all the alternatives in the rigorous, well-
supported, carefully staffed out diverse ideas represented way 
we would like it to be done, will be read as a sign of lack of 
confidence in their own policy.
    We have gotten ourselves into this fix because we have not 
heretofore been examining all possibilities with the degree of 
rigor and intensity that they deserve. At the moment, again, I 
think the way to get us out of this fix is for the Congress to 
legislate something so that it no longer becomes an apparent 
sign of lack of confidence.
    I think more broadly, we just need a healthier debate at 
moments prior to looming potential catastrophe. And there are 
two points in time I thing where we made mistakes as a nation, 
as a people, and the Administration made a mistake.
    The first one was, in 2002, when Congress issued the 
blanket authorization for the use of force. Rather than 
demanding that consideration be given for a formal declaration 
of war or the invoking of the War Powers Act. The War Powers 
Act, I am not a constitutional expert, but it sure seems to me 
that it is a fig leaf for people to hide behind rather than to 
try and actually make something useful come from it.
    And I think that there ought to be some healthy debate 
within the halls of Congress about its responsibilities as the 
body that is supposed to, you know, authorize the use of 
military force and take the Nation and the people it represents 
to war.
    General Eaton. The executive branch has gotten too strong. 
The commander-in-chief notion that the President is commander-
in-chief was seen by the founding fathers as the number one 
general, not the man who would decide that the entire nation 
would go to war.
    We have a concentration of power, had a concentration of 
power in the hands of the President and Vice-President and the 
Secretary of Defense. Congress went mute and allowed it to 
happen. And the generals stayed silent as well.
    Ms. Davis of California. Secretary West, did you want to 
comment?
    Secretary West. I think Steve is really on to something. It 
is just a question of how it would be done. We know it is 
inevitable that General Odierno and the others in the next 
couple of months are going to be talking about a Plan B.
    Having a discussion that is fairly open, Steve may be onto 
something. I just don't know how to work it out. I will say 
this much. I do know the House Armed Services Committee is 
trusted more than any other committee in either branch down at 
this end. So if anybody could do it, it would be the House 
Armed Services Committee. But I am not sure exactly how it 
would be done.
    But he is right. If there could be a more open discussion 
of these things before it was decided, it would make a vast 
difference.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you.
    Secretary West, relevant to your observations that there 
are different reactions to a death depending upon how it 
occurred, it takes cigarettes just about three days, in fact a 
bit less than three days, to kill more people than all the 
people that we have lost in the multi-year war. And there is no 
outrage to that.
    I would like for you, if you will, to help me in a little 
poll survey that I am doing. You each have something to write 
with and a piece of paper?
    If you will write down four things for me on that piece of 
paper. The first one is, they hate each other hate al Qaeda, 
they hate us, and something else.
    So four lines, hate each other, hate al Qaeda, hate us, and 
something else.
    Now, if you will put down--there is a lot of violence in 
Iraq--if you will put down the percent of the violence in Iraq 
that you think is engendered by each of those.
    Now, in a prior hearing, one of our witnesses thought this 
was an essay test. This is just some numbers.
    Okay.
    Hopefully, they will add up to a hundred.
    We will trust you that you will read what you have written 
on your paper, not be influenced by what the others have 
written down.
    Secretary West, what are your number? Hate each other? How 
much? what percent?
    Secretary West. Thirty percent, sir.
    Mr. Bartlett. Thirty percent because they hate each other. 
All right.
    They hate al Qaeda?
    Secretary West. One percent, sir.
    Mr. Bartlett. One percent. Wow.
    Secretary West. This is the violence. When you say hate al 
Qaeda, how many kill al Qaeda because they hate al Qaeda?
    Mr. Bartlett. No, I mean how much of the violence is Iraq 
is engendered because----
    Secretary West. Oh, because of al Qaeda.
    Mr. Bartlett. Yes, sir.
    Secretary West. Oh, oh, I am sorry. Then, basically, 40 
percent is al Qaeda driven.
    Mr. Bartlett. And 30 percent is----
    Secretary West. Hate us.
    Mr. Bartlett [continuing]. Rethink the 30?
    Secretary West. Are opposed to us.
    Mr. Bartlett. Okay.
    Secretary West. Thirty percent against us, 30 percent 
against each other, and al Qaeda is 40.
    Mr. Bartlett. How much they hate us is how much?
    Secretary West. I am sorry, sir, 30 percent.
    Mr. Bartlett. Thirty percent.
    Okay, they may mean something else in your world, okay, 
good. Thirty, 40, 30.
    General Eaton.
    General Eaton. Fifty, 10, 40.
    Mr. Bartlett. Fifty?
    General Eaton. Hate each other.
    Mr. Bartlett. Ten, forty.
    General Eaton [continuing]. Al Qaeda 40 percent hate us.
    Mr. Bartlett. Colonel Hughes.
    Colonel Hughes. I guess I am the odd man out, sir. Five 
percent hate each other.
    Mr. Bartlett. All right.
    Colonel Hughes. Forty percent hate al Qaeda. Forty percent 
hate us. And 15 percent is due to something else and that 
something else is crime.
    Mr. Bartlett. Crime? Okay.
    Secretary West. Good point.
    General Eaton. Very good point.
    Mr. Bartlett. Okay, Dr. Biddle.
    Dr. Biddle. I would say 55 percent on hate each other, 25 
percent on al Qaeda, 20 percent on hate us. And I would also 
add at least 10 percent on something else, chiefly crime.
    Mr. Bartlett. Crime.
    Dr. Biddle. And add personal vendettas and other things in 
that category.
    Mr. Bartlett. Okay.
    So roughly, a third of the violence would go away if we 
leave if I average out your numbers.
    Dr. Biddle. Well, provided they don't try to kill somebody 
else.
    Mr. Bartlett. Yes. Okay.
    But at least for three of you, the hate each other was a 
pretty big number. And our leaving is not going to change that, 
is it?
    Dr. Biddle. No. The percentage may change if we leave.
    Mr. Bartlett. Oh, they will because we are not there any 
more so those who hate us will be hating somebody else.
    Dr. Biddle. Yes. I would be careful about the inference 
that they hate us percentage of the violence will disappear and 
be replaced by peace and tranquility----
    Mr. Bartlett. Right.
    Dr. Biddle [continuing]. If we left.
    Mr. Bartlett. I thank you very much. I am just trying to 
get some feel as to what the experts think the climate is over 
there and this little survey helps me get some feel for that.
    I am adding that to my growing list. Thank you very much.
    Thank you, Mr. Chairman.
    Dr. Snyder. Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I just want to go back and ask Major General Eaton, you 
said that the State Department was not structured correctly for 
the types of challenges that we have like Iraq, maybe Bosnia 
and Kosovo, I don't know, going back to your experience, or for 
the future. Can you, having been a general, and having seen 
this transition that we do, what do you think we need to do to 
restructure that State Department so that they can do more of 
this transition, some call it nation building, I mean, I don't 
know what to call it, I just know, you know, once the military 
has done its job, we really should get them out. We shouldn't 
ask the Army to build the nation, if you will.
    From your standpoint, having watched now, much of this 
happen in different areas, what do we need to do to change this 
State Department to better adapt for the future?
    General Eaton. First, the Department of Defense does not 
manage language foreign area specialists particularly well. We 
have a tendency to train and then grind them off. The State 
Department sees that----
    Ms. Sanchez. Go back to that. So the Department of Defense, 
are you talking about local people that we are using or people 
in the military that we are using for language or State 
Department type of people that we are using for language 
purposes?
    General Eaton. The Department of Defense does not see 
language proficiency for an area officer proficiency as 
important enough to do what we need to do within the military 
to----
    Ms. Sanchez. To have that type of capability within the 
military.
    Are you suggesting that our military should have some of 
thee capabilities so that they, in fact, do some of that nation 
building?
    General Eaton. The military justifiably does not see that 
as its main responsibility. The responsibility of the military 
is to fight and win the nation's wars. The State Department 
sees that as a primary requirement, as a primary effort.
    Ms. Sanchez. For the Department of Defense or the State 
Department primary?
    General Eaton. State Department.
    Ms. Sanchez. Okay.
    General Eaton. That is, diplomats learn languages----
    Ms. Sanchez. Right.
    General Eaton. Diplomats learn how to swim in the 
environments where they are.
    The organizational issue for the State Department is we 
have the Department of Defense organized in regional commands. 
Every square inch of this planet now belongs to a four-star 
admiral and general.
    I believe that a similar approach, perhaps overlaid on 
existing boundaries, needs to happen within the State 
Department.
    Two, they are not resourced to meet the expectations that 
we have, that the military has of the State Department.
    And their personnel policies allow members of the State 
Department to say no to an assignment.
    Ms. Sanchez. So somebody that we think is the best-
qualified to go into Iraq can actually turn down that 
assignment.
    General Eaton. Secretary Rice cannot direct people within 
State Department to go fill the EPRTs who we have right now. 
Hence, those are being filled by military.
    Ms. Sanchez. As opposed to your experience where you can 
send wherever the service tells you to go or you get out.
    General Eaton. That is right.
    Well, you don't even have that. I mean, you go to jail.
    Ms. Sanchez. Some cases you get out. You just said you 
retired.
    So would you advocate then that the Department of Defense 
bleed over into some of the skill set or are you advocating 
more that we really put the line in between what the Department 
of Defense does what Department of State does and that we 
actually resource and change the way it is structured and the 
requirements of the State Department?
    General Eaton. I would not change the main effort of the 
Department of the Defense to fight and win the nation's wars. I 
would increase the capability of the State Department to be 
aggressive actors in the theaters of operations where they are 
not aggressive actors today.
    Ms. Sanchez. Thank you, General.
    Mr. Chairman, I yield back.
    Dr. Snyder. Mr. Saxton for five minutes and then we will go 
to Mr. Sestak.
    Mr. Saxton. First, Mr. Chairman, let me thank you for 
making it possible for me to be here today. I happen to, as all 
of you do, I am sure think that this is one of the most 
important periods of time that our country has faced in a long 
time so I appreciate being able to be part of this discussion.
    Gentlemen, each of you have expressed yourselves in the 
last few minutes since I have been here--I apologize for not 
being able to make it earlier but I was interested in something 
Dr. Biddle said in that before we enter into a situation like 
this again, conflict or whatever, that we ought to have a 
national discussion and ``examine all the possibilities.'' I 
think that is great advice.
    And a few minutes later, Secretary West talked about our 
military leaders and all of us here in the Administration and 
in Congress considering a Plan B.
    And I guess by question would be this. In terms of 
examining all possibilities as we move forward from the point 
we are in, which we obviously can't do anything about now. We 
are where we are. It would seem to me that we ought to have a 
discussion and I suggested this to my colleagues previously 
about where we go from here in examining all the possibilities 
including the recognition that Iraq does not exist in a vacuum, 
including the recognition that the country to its east, Iran, 
has demonstrated that it has aspirations to do some things that 
involve Syria and that involve Hezbolla, that involve perhaps 
the Shia majority in Iraq, that perhaps involve the state of 
Israel, and their support of terrorism may by a subject that 
even involves the United States.
    So I guess my questions is, in examining all the 
possibilities for decisions that we are about potentially about 
to make and recognizing the Iraq government doesn't exist in a 
vacuum, and recognizing that the other factors are, in fact, 
factors that we ought to be talking about, give us a quick one 
minute or two or whatever it is, each of you if you would, be 
kind enough to, on your assessment of what are our decisions we 
make, what are the ramifications of the decision we may make?
    Secretary West. Excuse me, sir, you mean relative to the 
Iranian dimension of the whole problem?
    Mr. Saxton. Relative to the what decisions we have to make 
about Iraq and the other factors that I mentioned?
    Secretary West. I will just touch on two and quickly move.
    You did mention, sir, that I think you should keep an eye 
on. And that is that the United States and Iraq together have 
to come to terms before December and go to the United Nations 
with the United Nations Security Council will then issue in 
December a statement about the role of the occupying power. 
That is going to be very interesting to see how we in Iraq work 
out our differences to go before the U.N.
    Separate statement about Iran, I think we have been 
tiptoeing around the tulips too long. If they are killing 
Americans, there should be a punishment for killing Americans. 
That may be easy for me to say versus the President, but if 
anything, I think, sure, I am perfectly willing to talk to 
them, smile genially like President Reagan did and at the same 
time say, gee, I am sorry, but you just lost the place where 
those bombs were coming from.
    General Eaton. We need a powerful diplomatic engagement. 
Essentially, Iraq is a protectorate right now and we are its 
protector. We need to distribute that to other nations of 
interest.
    And with respect to Iran, we suffered significant 
casualties during the Vietnam war at the hands of Soviet 
weapons and Soviet Proxy forces. Yet we maintained aggressive 
diplomatic action with the Soviet Union.
    I would endorse aggressive diplomatic action with Iran. And 
it is not necessarily all done by diplomats.
    Colonel Hughes. There are two vital interests that the 
United States has to deal with today and that is the 
proliferation of WMD and the issue of terrorism. You know, when 
it comes to WMD, we have accepted North Korea holding onto a 
stockpile of plutonium even though they are now shutting down a 
reactor they no longer need.
    We have allowed the Russians to continue to support for the 
Iranian nuclear reactor.
    We are allowing the Iranians to move on producing plutonium 
for their uses. And we are not doing much about it except with 
some feeble diplomatic initiatives.
    We are not bringing all of our national power to bear on 
this. And that needs to be fixed. It is difficult for the 
United States to fix it, though, when it is mired in a ground 
war that doesn't have any relationship to this particular 
problem. And the United States needs to resolve its presence in 
Iraq one way or another. In doing so, that will allow us to 
repair the alliances that have been fractured by this war and 
our partnerships with special friends.
    It will also allow us time to fix our military so that it 
is capable of doing the job when it is called to, again, do 
whatever the Congress wants it to do.
    Dr. Biddle. I think we have a number of profound interests 
at stake in Iraq, some humanitarian, some of them security. 
Among the security interests, I would highlight one that we 
have created for ourselves through the war in Iraq, which is 
the danger, not a certainty, but the anger of a possible 
regional conflict spanning the major energy producing countries 
of the Mideast if our policy in Iraq fails.
    The challenge is sufficiently grave as a threat to American 
national interest but I think it warrants the most intensive 
analytic effort we can provide to figure out how to mitigate 
it, particularly because migrating will require an unusually 
close marriage of diplomatic, political, economic, and military 
tools in ways that we have historically not done all that well 
all that consistently.
    And I think when I talk about the need for healthy U.S. 
debate on this kind of question, an essential piece of that 
debate is bringing together very, very different kinds of 
expertise that will almost never reside in single individuals. 
And somehow or another, getting the people who know regional 
politics in the Mideast, diplomatic instruments and tools and 
potentialities, the economic implications at stake here, and 
the detailed military problems, not just strategic but 
logistical, tactical, operational, and all the rest, in a way 
that allows them to hammer out some sort of integrated strategy 
for dealing with this conundrum.
    That is not an easy thing to organize. And I think unless 
we have very self-aware by organizing it, we run the risk of 
confronting this risk with the kin of tunnel-vision approach 
that is easy and natural but would be very unfortunate as a 
response to this problem.
    Dr. Snyder. Mr. Sestak for five minutes.
    Mr. Sestak. Thank you, sir.
    One quick comment and then I have two questions. I least I 
will get one in.
    If I could, General, in your comment, I always remembered 
General Shalikashvili saying, I can't just hang out a sign in 
front of the Pentagon saying we only do the big ones.
    And I think the key point I think in the debate between you 
and Ms. Sanchez was that in the military, there is U.S. force. 
And there are U.S. forces. The force is really meant for why 
you all exist, to fight and win our nation's war, hopefully, 
because of that ability to deter them.
    But there are forces that at times can be helpful to the 
nation-building process from logistics to civil affairs units 
and all. And we never want the second to overtake the first I 
think is your overarching point. And that is what I took it.
    My second one though is, if I can build off of what you 
just said, Doctor, and what I think Mr. Saxton said well. I am 
a date certain guy for my own reasons. But set that aside and 
enough time because if anybody thinks they can get out tomorrow 
they just don't understand the military situation or 
diplomatic, I think.
    My take on it, though, is, while ending this war is 
necessary, it is insufficient. How we end it in the means by 
which we do so is actually more important because it has to do 
with the safety of our troops and for our overall security.
    The aftermath, we will own. We will own because by first of 
all, the dog may catch the car soon, and something maybe 
implemented.
    I honestly think Democrats have to turn, if they are, away 
from pure opposition to this war into trying to address in a 
bi-partisan way a war that is not Bush's war. It is America's 
war because the consequences of the aftermath are so great.
    With that as background, I understand what you said, each 
of individually what we should do. What should Congress do in 
the months to come because we need the Republicans and they 
need us in a sense end this tragic misadventure in the right 
way.
    What and how? As I watch Senator Lugar, as I watch what 
happened on the Senate side, I didn't see them go to the next 
step for probably good reasons over there. But this is our war.
    And I am so worried about the Army with not one active unit 
Reserve, Guard, that can state of readiness to help those 
30,000 troops sitting in South Korea if they were attacked 
tomorrow because they are not in condition and everywhere 
around.
    What should Congress do? I mean like now.
    Dr. Biddle. Well, there are a couple of different ways to 
think about what congress can do.
    One thing Congress can do is mandate troop withdrawals 
through control of the purse, for example. So there is a great 
deal of interest in the Congress at trying to find a middle 
ground, troop presence in Iraq figure that perhaps would allow 
for bi-partisan compromise, or perhaps would be a slow way to 
ease into a total withdrawal.
    I actually think the most useful role that Congress can 
play at this point is causing ideas to be discussed that 
otherwise won't be. And again, I don't want to return to the 
same idea too often but in an extremely complex subject matter 
problem like how in the world do we mitigate the costs of 
either total or partial withdrawal from Iraq, the natural 
tendency of the government, especially in a situation as 
polarized as this, is not going to be to examine an all 
possibilities with the kind of rigorous, multi-disciplinary 
approach that we would all like.
    The political catch-22 in doing that kind of planning can 
be overcome by law and that notion of creating ideas and 
information around which policy can be made, not just for 
lawmakers but also, for officers and strategic planners and 
people in the executive branch. I think that is a way that 
Congress can at this point in time, help us move forward in 
addition to just thinking about should we get out, should we 
not, what should the force level be.
    Colonel Hughes. Sir, that is an excellent question and I am 
glad you asked that.
    The biggest issue that confronts General Petraeus and 
Ambassador Crocker today is how do you wrap your arms around 
the political reconciliation issues of Iraq? And this nation 
lacks that ability because you don't have an Office of 
Political Reconciliation in the Department of State Foreign 
USAID. There are certain entities in the town and maybe this is 
a shameless advancement for my own institute but that is what 
we do.
    You need to empower entities like the Institute of Peace 
that do political reconciliation work so we can get out there 
and, you know, have a broader net to cast over Iraq and its 
provinces. We are seeing progress there but it is slow and it 
is very, very consuming in terms of resources for us.
    General Eaton. The issue before Congress is the President 
of the United States and his stubbornness and unwillingness to 
deviate from stay the course.
    That is the drama. I hear too much about the commanding 
general in Iraq and less about the Combatant Commander Fallon. 
Admiral Fallon has the entire region. He has all the countries 
that have a factor on the problem.
    The President of the United States will not shift off his 
definition of victory. His definition of victory is not going 
to happen. It is going to be something else crafted with the 
countries of interest around Iraq. You have got to reach out to 
the Republican Party to help the President shift off of his 
notion of victory.
    Mr. Sestak. I agree.
    Secretary West. I believe, sir, that the House Armed 
Services Committee, as I said earlier, is probably the only 
committee that really has the credibility inside the military. 
That if you were to say why don't we have some fulsome 
discussion about Plan B that you could get it.
    Mr. Sestak. You are saying we should be saying that.
    Secretary West. I believe you could do that, sir.
    Mr. Sestak. That is----
    Secretary West. I think this committee is probably the only 
committee that could do that.
    Dr. Snyder. We have some votes coming up but we will give 
members, if anybody has any other questions.
    Mr. Bartlett. Okay.
    Ms. Davis, any follow-up questions?
    Ms. Davis of California. Yes. Just----
    Dr. Snyder. You have the microphone for five minutes.
    Ms. Davis of California. Thank you.
    I think going back a little ways to our discussion about al 
Qaeda, I think it has been clear that I know several of you at 
least feel that that is central to what is happening today and 
yet, we really need to involve the neighbors.
    What impact do they then have on what al Qaeda continues, 
how they continue to grow or how they continue to create the 
situation there and even as we project here in the states? What 
influence do they really have?
    What are the costs then of trying to work with them as 
well? I think, Colonel Hughes, you addressed this or Dr. 
Biddle, the cost invoked and whether it is a nuclear or 
whatever it is, vis-a-vis Iran, how do you asses that?
    If al Qaeda is so central, and we need to work with Iraq's 
neighbors, what impact do they rally have on all of that?
    Colonel Hughes. If I could say something. Let us be 
specific. Al Qaeda in Iraq is al Qaeda in Iraq. They don't have 
allegiance with any of the neighbors. The foreign fighters who 
come in do not come predominantly except in one case from one 
particular neighbor. Saudi Arabia has a lot of people that have 
come in. We are seeing a growing number of foreign fighters 
coming from North Africa. We also have Chechnyans coming in but 
you don't have Iranians coming in. You do have some of the 
bleed over from some of the other neighbors as I said.
    Ms. Davis of California. Would you say just al Qaeda rather 
than al Qaeda in Iraq then. Is there something that we are 
trying to a way of working with the neighbors that would impact 
al Qaeda?
    Colonel Hughes. If we could forge a common stand among the 
neighbors and Iraq against al Qaeda, I think everybody would 
benefit from that. Nobody in that region likes Osama bin Laden 
and what he stands for because he is a threat to every one of 
them. You know, so nobody has an interest in supporting al 
Qaeda in Pakistan or al Qaeda in Iraq. It is not in their best 
interests.
    General Eaton. I believe there are two al Qaedas. There is 
the al Qaeda of the private soldier, the foot soldier, the guy 
who can do basic infantry work. And then, there is the al Qaeda 
that was able to do the low-tech, high-concept attack on the 
United States on 9/11.
    Those are very different----
    Ms. Davis of California. Right.
    General Eaton [continuing]. Entities. And our problem is 
the silent majority, the silent majority of Muslim nations 
unwilling, as we are discussing here, to step forward and say 
enough and to eliminate that issue in their countries.
    Ms. Davis of California. I guess just to follow up on that 
though. Do we have a strategy for doing that whether it is in 
the hyperspace----
    General Eaton. I would go back to the diplomacy issue and 
convincing Saudi Arabia that it is not in their interest to 
continue a blind eye of developing this al Qaeda fighters and 
sending them into Iraq.
    Secretary West. Technically, Syria is allowing about 70 
foreign fighters, 85 percent of them being suicide bombers to 
come through per month through the airport at Damascus.
    Iraq is averaging one suicide bomber a day, which is 
equivalent to one thinking cruise missile murderous bastard a 
day just killing hundred and hundreds of people. This is what 
causes many people to believe that if al Qaeda in Iraq that is 
doing this could be stopped from doing it, you could stop the 
cycle of violence.
    But our influence over Syria to cause them--and they could 
shut down the Damascus airport any time they want--but we don't 
have the leverage with them to persuade them to do it. One a 
day are coming in and just massively killing in Iraq.
    Dr. Biddle. Again, I think the central problem is leverage 
and again there are mixed motives on all parts. But the 
Syrians, just like everyone else, are threatened by global al 
Qaeda. I mean, global al Qaeda's primary target are secular 
authoritarian regimes in the Mideast. Well, Syria would be 
fairly high on that list if you were just to look at they are 
most opposed to and the kinds of governments are available.
    The trouble is, on the one hand, they don't show interest 
with al Qaeda. On the other had, they don't show interest with 
us either. And at the moment, in some ways, our policy in the 
region is more threatening to them than Osama bin Laden's.
    The challenge in dealing with all these countries in 
diplomatic interchange is to try and expand the current range 
of common interests and deal with the areas where what the want 
in Iraq is different from what we want.
    My concern is the areas where what they want and we want 
are different for both large and very, very important to these 
states, who after all, are neighbors of Iraq, who have 
absolutely viral national security interests and what that 
country looks like in five to ten years.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Sestak, we are going to give you the last 
word but it better be a reasonably quick word since we have a 
vote underway.
    Mr. Sestak. Yes, sir.
    I have one question that gets back to Iran. Traveling 
through Iran with Iraq with Senator Hagel for three days. Being 
with that senator was the best three days I have had in 
Congress.
    I was taken where everyone said the influence of Iran is 
undo. It is there. It is pervasive. And they talked about 
Syria, too. Saudi. And having always believed that, though not 
as well stated as the road out to Iran--I am going to use that 
from now on.
    General Eaton. As a footnote, Congressman, I didn't invent 
that.
    Mr. Sestak. I got it.
    I am taken with incentives, incentives that change 
behavior. You reduce taxes and it changes your behavior. I am 
also taken with that saying in the Middle East, having been 
there lots of times, imshala, God willing tomorrow. It seems to 
me there needs to be incentive that change the behavior of Iran 
from destructive to trying to get influence to be constructive.
    General Eikenberry and his departure from Afghanistan said 
to us in a hearing when asked, does an end work toward our 
interest in Afghanistan? The answer was yes, not because he 
wants the same interest, he would want Taliban, he would want 
al Qaeda there, put half-a-million dollars in roads. There are 
some common interests.
    I am trying to find those Venn diagrams where things 
overlap, what are those incentives? Because I do believe 
engagement should be with consequences. Diplomacy can be tough, 
sanctions, whatever. What are those incentives--even 
withdrawing troops could be an incentive. What are some 
incentives, positive and negative, very quickly, that you think 
could bring about parties to the table to help facilitate an 
aftermath that is more accommodating toward stability, 
particularly with Iran?
    Dr. Biddle. I think with Iran, the critical common interest 
is nobody wants anarchy. The problem is the kind of non-anarchy 
they want and we want is very, very different and getting them 
to accept something that looks like more like our version of 
non-anarchy, something other than a Shiite dictatorship that 
will follow the wishes of Iran, is going to be something that 
is going to require us to sweeten the deal with the Iranians 
because I think at the end of the day, they think they are in 
the ascendancy here. We are in decline. They have the arrows in 
the quiver. We don't.
    Their willingness to compromise with us simply is a way of 
avoiding chaos is going down not up because they think they can 
avoid that without our help. In an environment in which at the 
moment, they think they are holding the cards and it is just a 
matter of waiting it out until the United States leaves so they 
get the version of non-anarchy they prefer, rather than the 
version we prefer, we are probably going to have to give them 
something else that is in our power to give that they actually 
care about, which is primarily, I suspect, their nuclear 
program. Secondarily and somewhat more broadly, the sense of 
respect from the Untied States.
    Those are the two things they want from us that we haven't 
given them and we don't particularly want to give them either 
of those, especially ground on their nuclear program. But I 
have a feeling we will have to if we are going to make any 
headway.
    Colonel Hughes. You need to look at Iran in its total 
complexity. If we keep think about Iran merely as a supportive 
factor to an insurgency and growing civil was in Iraq, we are 
missing the boat. The Iranian government is stressed. They are 
severely over-stretched in a number of things. There are riots 
all the time in the north. There are reports of public 
shootings of Kurds all the time. They have got gas and fuel 
crisis. They claim they need the nuclear energy because their 
oil infrastructure is collapsing.
    You know, so there are a lot of different things we need to 
look at and understand about what makes Iran tick today and 
then see how we can turn those into leverage points that would 
help us influence their behavior in Iraq.
    Mr. Sestak. General.
    General Eaton. I would only add that, excellently stated, 
we have a military problem right now with Iran. We are at a 
conventional military disadvantage right now because of their 
geography and our poor structure tie down. Diplomatically, 
politically, economically, we can generate the upper hand, 
particularly in the international community very quickly to 
leverage them.
    Mr. Sestak. Sir.
    Secretary West. Cause them pain. We are the greatest 
country in the world and the most powerful country in the world 
and they are in a position where they are training, equipping, 
and planning the deaths of Americans. I would figure out a way 
of putting a stop to that and put the fear of god in them.
    Mr. Sestak. Thank you.
    Dr. Snyder. Secretary West, General Eaton, Colonel Hughes, 
and Dr. Biddle, we appreciate you being here. I think it is the 
kind of discussion that this committee likes to have and needs 
to have and will be an ongoing discussion for months and years 
to come.
    Thank you so much for being here.
    The committee is adjourned.
    [Whereupon, at 12:28 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 25, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 25, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8758.001
    
    [GRAPHIC] [TIFF OMITTED] T8758.002
    
    [GRAPHIC] [TIFF OMITTED] T8758.003
    
    [GRAPHIC] [TIFF OMITTED] T8758.004
    
    [GRAPHIC] [TIFF OMITTED] T8758.005
    
    [GRAPHIC] [TIFF OMITTED] T8758.006
    
    [GRAPHIC] [TIFF OMITTED] T8758.007
    
    [GRAPHIC] [TIFF OMITTED] T8758.008
    
    [GRAPHIC] [TIFF OMITTED] T8758.009
    
    [GRAPHIC] [TIFF OMITTED] T8758.010
    
    [GRAPHIC] [TIFF OMITTED] T8758.011
    
    [GRAPHIC] [TIFF OMITTED] T8758.012
    
    [GRAPHIC] [TIFF OMITTED] T8758.013
    
    [GRAPHIC] [TIFF OMITTED] T8758.014
    
    [GRAPHIC] [TIFF OMITTED] T8758.015
    
    [GRAPHIC] [TIFF OMITTED] T8758.016
    
    [GRAPHIC] [TIFF OMITTED] T8758.017
    
    [GRAPHIC] [TIFF OMITTED] T8758.018
    
    [GRAPHIC] [TIFF OMITTED] T8758.019
    
    [GRAPHIC] [TIFF OMITTED] T8758.020
    
    [GRAPHIC] [TIFF OMITTED] T8758.021
    
    [GRAPHIC] [TIFF OMITTED] T8758.022
    
    [GRAPHIC] [TIFF OMITTED] T8758.023
    
    [GRAPHIC] [TIFF OMITTED] T8758.024
    
    [GRAPHIC] [TIFF OMITTED] T8758.025
    
    [GRAPHIC] [TIFF OMITTED] T8758.026
    
    [GRAPHIC] [TIFF OMITTED] T8758.027
    
    [GRAPHIC] [TIFF OMITTED] T8758.028
    
    [GRAPHIC] [TIFF OMITTED] T8758.029
    
    [GRAPHIC] [TIFF OMITTED] T8758.030
    
                                  <all>

</pre></body></html>
